<html>
<title> - DEMOCRACY IN DANGER: THE ASSAULT ON VOTING RIGHTS IN TEXAS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]





 
                    DEMOCRACY IN DANGER: THE ASSAULT

                       ON VOTING RIGHTS IN TEXAS

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON CIVIL RIGHTS AND CIVIL LIBERTIES

                                 of the

                         COMMITTEE ON OVERSIGHT
                               AND REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 29, 2021

                               __________

                           Serial No. 117-39

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      


                       Available at: govinfo.gov
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                             
                              ______                       


             U.S. GOVERNMENT PUBLISHING OFFICE 
45-425 PDF            WASHINGTON : 2021                              
                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Mike Quigley, Illinois

                      Russ Anello, Staff Director
              Candyce Phoenix, Subcommittee Staff Director
                    Amy Stratton, Deputy Chief Clerk

                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                                

            Subcommittee on Civil Rights and Civil Liberties

                    Jamie Raskin, Maryland, Chairman
Kweisi Mfume, Maryland               Pete Sessions, Texas, Ranking 
Debbie Wasserman Schultz, Florida        Minority Member
Robin Kelly, Illinois                Jim Jordan, Ohio
Ayanna Pressley, Massachusetts       Andy Biggs, Arizona
Eleanor Holmes Norton, District of   Nancy Mace, South Carolina
    Columbia                         Scott Franklin, Florida
Alexandria Ocasio-Cortez, New York   Byron Donalds, Florida
Rashida Tlaib, Michigan              Clay Higgins, Louisiana
Danny K. Davis, Illinois


                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on July 29, 2021....................................     1

                               Witnesses

The Honorable Senfronia Thompson, Texas State Representative, 
  Member, Select Committee on Constitutional Rights and Remedies
Oral Statement...................................................    10
The Honorable Nicole Collier, Texas State Representative, Chair, 
  Texas Legislative Black Caucus
Oral Statement...................................................    11
The Honorable Tracy Clardy, Texas State Representative
Oral Statement...................................................    14
Ms. Nina Perales, Vice President of Litigation, Mexican American 
  Legal Defense and Education Fund
Oral Statement...................................................    15
The Honorable Diego Bernal, Texas State Representative, Member, 
  Mexican American Legislative Conference
Oral Statement...................................................    17

Written opening statements and statements for the witnesses are 
  available on the U.S. House of Representatives Document 
  Repository at: docs.house.gov.

                           Index of Documents

                              ----------                              

  * Governor's Proclamation - Texas Governor Abbott's Order on 
  the Texas Special Session; submitted by Rep. Sessions.

  * Record of Voter Fraud Cases Under Investigation in Texas; 
  submitted by Rep. Sessions.

  * Memo - To the Republican Texas Delegation: The Realities of 
  Voter Fraud in Texas and Other States; submitted by Rep. Roy.

  * Article - ``Texas Had an Outsized Presence at the Capital 
  Insurrection''; submitted by Rep. Tlaib.

Documents are available at: docs.house.gov.


                    DEMOCRACY IN DANGER: THE ASSAULT

                       ON VOTING RIGHTS IN TEXAS

                              ----------                              


                        Thursday, July 29, 2021

                   House of Representatives
                  Committee on Oversight and Reform
          Subcommittee on Civil Rights and Civil Liberties,
                                                   Washington, D.C.

    The subcommittee met, pursuant to notice, at 10:30 a.m., in 
room 2154, Rayburn House Office Building, Hon. Jamie Raskin 
(chairman of the subcommittee) presiding.
    Present: Representatives Raskin, Maloney, Mfume, Wasserman 
Schultz, Kelly, Pressley, Norton, Ocasio-Cortez, Tlaib, Davis, 
Sessions, Comer, Jordan, Biggs, Mace, Franklin, and Donalds.
    Also present: Representatives Sarbanes, Fletcher, Veasey, 
Roy, Fallon, and Cloud.
    Mr. Raskin. All right. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    And without objection, pursuant to the motion by Mr. 
Sessions, Representatives Fallon, Cloud, and Roy shall be 
permitted to join the hearing and be recognized for the purpose 
of questioning witnesses. Welcome, Mr. Roy.
    We are here today to talk about the voting bills that are 
currently pending in the Texas legislature and how those bills 
are related to other voter suppression proposals in states 
across the country, specifically targeting voters of color and 
other vulnerable communities. While we are lucky to have Texas 
legislators joining us today who are on the front lines of the 
fight to defend voting rights in their state, I also want to 
make sure that we had the opportunity to hear from Texas voters 
who are affected by this potential legislation. Let's take a 
moment to listen to some public testimony given by a few of 
those voters during hearings on these bills earlier this year.
    [Audio played.]
    Mr. Raskin. So, that is a representative sample of hundreds 
of voters who have spoken up against the legislation in Texas. 
It is up to us now in Congress to listen to the cries for help 
that are coming from Texas and from other states and to take 
action on comprehensive voting rights legislation in the House 
and in the Senate.
    I will now recognize myself for an opening statement, then 
go to my friend, Mr. Sessions, for his opening statement.
    Good morning, and I want to thank our witnesses for being 
with us today on the occasion of this truly historic hearing. 
And we know it has taken a lot for you to get here, and we 
appreciate very much your being here and helping to educate 
Congress and the country about what is going on in Texas. 
Before we get into that, though, I want to take a moment, and I 
think it is not inappropriate, to mark the passing of a great 
voting rights hero and a great hero of mine, Bob Moses, who 
died on Sunday.
    And Bob Moses was a graduate student in mathematics and 
philosophy at Harvard in 1960 when he opened up the newspaper 
and he saw pictures of students sitting in from North Carolina 
A&T at lunch counters in the South. And he said, ``Those 
students look the way that I feel,'' and he knew that he had to 
go down South to participate in the Civil Rights Movement, the 
struggle for people to be on a plane of equality as citizens. 
And when he got down to Mississippi, he thought he was going to 
be involved in a movement to try to desegregate the lunch 
counters and the restaurants. And he talked to a man down there 
named Amzie Moore, who was the head of the local NAACP, and he 
said, you know, we don't really need people sitting in in the 
restaurants and lunch counters. And Bob Moses said, well, what 
do you need, and he said, well, when you look around, what do 
you see, and he said, I see beautiful terrain, and trees, and 
people. And he said, this is a congressional district that is 
two-thirds African American, and less than one percent of the 
Black people down here are registered to vote because of the 
grandfather clauses, and the literacy tests, and the poll 
taxes. And the local Democratic party, a racist party 
structure, has excluded African Americans from voting.
    And that is what launched Bob Moses on his crusade with the 
Student Nonviolent Coordinating Committee to desegregate 
Mississippi, and Alabama, and the rest of the South, and the 
country. And it was that struggle that gave us the phrase ``one 
person, one vote.'' Each person has a right to vote. And, of 
course, the Student Nonviolent Coordinating Committee organized 
people to register at great personal risk. Bob Moses was nearly 
killed several times by Klansmen, by sheriffs, by people who 
came to attack him. Of course, Schwerner, Chaney, and Goodman 
were killed during the Freedom Summer that SNCC organized. But 
Bob Moses never gave up the struggle for people's voting rights 
and went on also to create the Algebra Project, saying that the 
right to know mathematics is also a fundamental civil right in 
our country.
    So, I wanted to note that and observe that, and I wanted to 
start on a bipartisan note that the struggle for the right to 
vote has been a struggle against all political parties in our 
history, and nobody has clean hands here when you look at it 
historically. The question is whether we are willing to commit 
ourselves to a struggle that extends the right to vote for 
everyone. It is not a partisan question. It is a question about 
small ``d'' democracy for everybody.
    So, earlier this year, legislators in Texas unveiled 
perhaps the most aggressive set of proposals for voting 
restrictions anywhere in the country, 65 different anti-voter 
bills: dramatic restrictions on mail-in voting, vastly 
increased criminal liability for people who help their family 
or their friends to vote or bring their ballots to the mailbox, 
increasingly stringent voter ID requirements, and more and more 
criminalization of what goes on in the polling place, enhanced 
protections for partisan poll workers who set out to intimidate 
voters, and additional limits on how election officials 
encourage voters to participate. At one point, and somebody is 
going to have to explain this to me, it is made a crime to 
encourage people to vote. I think, if I am reading this 
proposal correctly, they make it a crime to encourage people to 
vote. I don't see how that possibly can square with the First 
Amendment of the United States. I openly encourage people to 
vote all over the country and in Texas right now. Can that 
actually be a crime to do it either on TV or in the social 
media or in person, talking to people, encouraging them to 
vote? There was even, I think in the first draft of this 
legislation, an effort to restrict early voting hours on 
Sunday, a clear attempt, at least as it was read in Texas, to 
undercut and hamstring Black churches, which ran Souls to the 
Polls turnout operations.
    All of this is taking place despite zero evidence of 
massive voter fraud in Texas. None of it. Lots of invocations 
of integrity of the ballot, purity of the ballot. Well, those 
are code words that go back centuries now. I mean, some people 
see impurity of the ballot when they see people they don't like 
voting, so we want to get to the bottom of that. Is there a 
widespread voter fraud in Texas that this is responding to or 
is something else going on?
    One thing I read about was that a Texas legislator 
introduced just this month a bill calling for a forensic audit 
of the state's 2020 results, but only in large counties won by 
President Biden. And when asked why he had not included all the 
counties in Texas, he said, ``What is the point? I mean, all 
the small counties are red.'' You know, how can that be 
consistent with our bipartisan--I will go beyond that--
nonpartisan, let us not even say bipartisan, because a lot of 
people are sick of both of the parties, how about just a 
nonpartisan commitment for everybody to have the right to vote 
unimpeded without jumping through all of these hoops?
    Democratic state representatives in Texas, including our 
witnesses today, organized a walkout in May to deny Republicans 
a quorum at the end of their session, preventing passage of the 
voting bill that would strip their constituents of access to 
the ballot. In response, Governor Abbott convened a special 
session on July 8 to pass this sweeping draconian new election 
overhaul. Democrats once again denied the legislature a quorum, 
this time by coming here, petitioning the U.S. Congress for a 
redress of grievances, demanding the attention of a country 
that is committed to fairness in voting, to come to urge us to 
protect their voting rights. And they have done this at great 
personal cost, at great personal risk, by leaving their 
families behind, and I, for one, salute them for their courage 
in being here today. But blocking a quorum is not a permanent 
solution to the problem of efforts to disenfranchise people and 
suppress the vote in America. They are here to ask us to act, 
and we must pass the For the People Act and the John Lewis 
Voting Rights Act.
    The cost of inaction will be devastating for our democracy. 
The voting restrictions in Texas will strike at the heart of 
democracy in that great state. Restrictions on voter assistance 
will potentially criminalize normal interactions between 
friends and family members who may require assistance to cast a 
ballot because they are not proficient in English, because they 
need a ride to the polls. It could have devastating 
consequences, especially in the Latino community. You cannot 
out-organize a law that criminalizes you for trying to help 
your grandmother vote. Limits on what local election officials 
can do to prevent intimidation by partisan poll workers will 
also leave minority voters vulnerable.
    Just last year, leaked video showed GOP Texas officials' 
aim to organize election integrity brigades of 10,000 largely 
white poll watchers to monitor communities of color in Houston. 
Imagine how many brigades there will be once poll workers have, 
as the ACLU of Texas puts it, a one-time get-out-of-jail free 
card for voter intimidation, because there is a remarkable 
provision--I have never seen anything like it--in this 
legislation which says that a partisan poll worker cannot be 
removed from the polls until they have already been warned once 
for violating the law. So, they get one free bite at the apple 
to violate the law, and I do want to ask the witnesses about 
that.
    Finally, this bill prohibits reforms that were successfully 
implemented last year by Harris County, such as drive-through 
voting and 24-hour voting, that were mainly utilized by 
African-American and Latino voters. The Texas Civil Rights 
Project estimates that over a half of all ballots cast using 
those methods were cast by voters of color. So, this zealous 
pursuit of a massive draconian crackdown on voting is now a 
national crisis.
    According to the Brennan Center, 18 states have enacted 30 
laws restricting voting rights so far this year. More are on 
the way. Congress has to act. We have a responsibility to 
guarantee the people of the United States a republican form of 
government. And I am sorry, my dear friends, that is not a 
capital ``R'' Republican. It is a small ``r.'' It is a 
republican form of government, a representative form of 
government where everyone can vote and participate, and they 
can choose Republicans, or Democrats, or Libertarians, or 
Independents, whatever else.
    But the point is the people get to decide. We don't get to 
micromanage and gerrymander the electorate. We have to fight 
back against this new campaign for voter suppression sparked by 
the Big Lie, the same big lie which brought chaos and violence 
down on this institution and this Capitol just six months ago. 
And for anyone who has not watched our valiant police officers 
describe what took place on that day, I beseech you to do so. 
Regardless of what you think your views are now, I beg you to 
go and watch what they went through as they were assaulted with 
baseball bats, steel pipes, flagpoles, bear spray, and mace for 
four or five hours defending our democracy. And all of that 
took place to, so-called, Stop the Steal in the name of the Big 
Lie, which is that President Biden did not actually defeat 
Donald Trump by more than 7 million votes, which he did. This 
wave of legislation, I think, grows out of that same poisonous 
soil of the Big Lie. The future of democracy is in our hands.
    So, with that, I offer my friend, Mr. Sessions, the time 
that he needs to make his opening statement, and then we will 
go to our witnesses. Mr. Sessions?
    Mr. Sessions. Mr. Chairman, thank you very much. Mr. 
Chairman, because this is a hearing specifically about Texas, I 
would like to ask unanimous consent to have Governor Greg 
Abbott's order about that special session entered into the 
record.
    Mr. Raskin. Without any objection at all.
    Mr. Sessions. Thank you very much, Mr. Chairman. Mr. 
Chairman, the work of the state of Texas is very important, and 
the people of the state of Texas have duly qualified and 
elected individuals who would represent them. It has become a 
common cited effort that people, when they know they do not 
have the votes, to leave, to walk out, to not participate, and 
I don't know where all this came about. But I know that here in 
Washington, DC, we do not have the votes to win any single 
vote, so to speak. None. But Republicans don't walk out. We 
don't go and accuse people of things just because we are 
losing. And I would suggest to you that what is happening today 
in Texas is the rights of all Texans are being withheld because 
members of the Democratic Party, who are members of the State 
House, choose not to be a part of it.
    So, the question is, what is some of this that is being 
withheld? Well, one of them is the election integrity bill. We 
are going to talk about that election integrity bill in detail, 
and I think that anyone listening to this will recognize that 
the strength of any majority or member of that body to bring 
forth a bill that they believe would be important, is 
important. Whether it is complete or not, that process would 
involve each of the members who would be here to offer 
amendments to that to change it, but members are still allowed 
to represent their particular constituents with what they do.
    Second, border security. As a result of President Biden's 
decision on January 20 to literally tell Federal law 
enforcement officers that they will not enforce the laws, the 
border laws, the immigration laws, and the commonsense laws of 
this country, has placed a tremendous burden, and it is an 
emergency in Texas. Over 1 million illegal immigrants have 
entered the United States. Record numbers of drugs are coming 
in the United States. And essentially, these Federal officers 
that were there to protect the United States of America, not 
just our sovereignty, but protect people who might live in my 
hometown of Waco, Texas from drug cartels, that are sending 
record levels of fentanyl, cocaine, and meth to our American 
cities and homes.
    Third, family violence education is now not moving forward 
in Texas. This is based upon their ability to provide 
appropriate and more education to middle and high school 
students about dating violence, domestic violence, and child 
abuse to recognize that what is happening in this country is we 
have a crisis in our homes, one could say because of COVID. I 
say because of the changing times, and we need to use our 
schools to educate our students about these circumstances.
    No. 3, youth sports. There is going to be a bill that is 
presented that disallows a student from competing in university 
interscholastic league athletic competitions designed for 
students of the opposite sex. We believe, I believe, it is fair 
to have the debate and a vote, and to see the different ideas 
that come forth about that opportunity where people of one sex 
would compete against another person of another sex that, I 
believe, is unfair to women. I think it is an anti-women 
circumstance that we are involved in. I had children. I 
competed when I was in high school, and it is unfair to have a 
17-year-old boy compete against a 17-year-old girl in most 
sports.
    Thirteenth check. This is legislation that the House has 
before it to give teachers a 13th check during the year, 
allowing teachers a chance to have not only more supplemental 
payments and benefits at a time when more money is available in 
the teacher retirement system, but it requires the legislature 
to act. Next, property tax relief. The proposal is to allow the 
legislature to provide appropriations from the General Fund to 
give property tax relief all Texans.
    These are important issues that need to be done, the 
business of the people of the state of Texas, and today, in 
essence, we are allowing and coddling people who should be at 
work in the state of Texas, their constitutional duties, and 
yet we are treating them as hometown heroes in Washington, DC. 
I believe that they need to have their constitutional duties 
performed and be back home.
    Now, Mr. Chairman, Texas has been a pioneer in passing 
early voting laws that began in 1988 in Texas, but I would say 
to you that Texas has used them every two years for the 
legislature to be able to strengthen these laws, and to provide 
feedback, and to allow Texans the opportunity to vote. I would 
note that Texas allows 17 days more of early voting then 
Delaware, which is where our President is from. Texas allows 
each Texan 17 days more than the state of Delaware. These bills 
that will be talked about today keep the ability for disabled 
or elderly persons to vote curbside. That is important to me. I 
have a disabled son. Perhaps my son may or may not want to go 
inside. He can stay outside. It allows that.
    We need to also remember that these discussions are 
discussions open to amendment. These bills would make sure that 
voters have a right to cure their absentee ballots of mistakes, 
and they are given in these bills up to 6 days after the 
election to be able to cure a mistake if you had one. This is a 
far cry from Democrats' claim that the vote is being 
suppressed. It actually allows them an opportunity to figure 
out if they had done something wrong. That is common in both 
the Senate and the House bills. Transparency is necessary in 
elections, and this bill guarantees election observers free 
from any public political persuasion. We heard our chairman 
today lament that partisan poll workers would be discouraged. 
Let me repeat. He believes evidently that partisan poll workers 
should be involved in that process. We disagree in Texas. We 
think anyone that comes to vote should be free of partisan poll 
workers engaged in an electionsite.
    We believe that Texas Democrats understand these bills 
because many of the people, and several of people that are here 
today, sought amendments to those amendments and they were 
accepted in the bills and the processes that have gone on. One 
member has been a member of the legislature for a number of 
years and no doubt knows that the laws of Texas that are 
updated every two years are done in the best interest of all 
Texans. But rather than continuing the debate, they broke 
quorum and they are trying to paralyze this progress that would 
be made on behalf of all Texans. Mr. Chairman, I hope today 
that the testimony that we are going to offer today from State 
Representative Clardy, in particular, will allow those elected 
representatives, who are Republicans in Texas, a chance to set 
the record straight about not only what is in these bills, but 
the need to make sure that Texas works together and passes 
these laws for the benefit of all Texas. I yield back my time.
    Mr. Raskin. Mr. Sessions, thank you so much. We have two 
other opening statements. We have the chair of the Committee on 
Oversight and Reform, Mrs. Maloney, and she is now recognized 
for her opening statement.
    Mrs. Maloney. Thank you, Chairman Raskin, for convening 
today's urgent and vital hearing. I want to thank you for your 
leadership on this issue and your enduring commitment to the 
legacy of our late chairman, Elijah Cummings, and our late 
colleague, Representative John Lewis, who both fought 
tirelessly to protect Americans' right to vote. This is a 
historic hearing, not just because of our distinguished 
witnesses, but because of the brave actions they took to defend 
the rights of Texans against one of the most aggressive 
attempts at voter suppression we have seen anywhere in the 
country. Now, more than ever, we must follow their example to 
ensure that these shameful attacks on the right to vote do not 
succeed. We must fight to fulfill the American promise that 
voters choose their elected representatives rather than 
politicians picking their own voters.
    When it comes to restricting the right to vote, our Nation 
has an ugly past. Historical voter suppression measures 
included threats of lynching, poll taxes, and literacy tests. 
Today, Texas remains the hardest state in the entire country 
for Americans to vote. Texas has repeatedly refused to 
implement reforms that would support greater voter engagement. 
In 2013, the Supreme Court's decision in Shelby County v. 
Holder blocked the Department of Justice from overseeing 
elections in places that historically discouraged and 
suppressed the votes of Black, Latino, and other communities of 
color. Since that decision, Texas has renewed its voter 
suppression with a vengeance. It has closed 750 polling sites, 
including 452 polling sites in counties with the largest 
increases in Black and Latino voters, and more than any other 
State in the Union. Now Texas Republicans are trying to add new 
restrictions to voting. Let's be clear about these bills, what 
they are and what are not. These bills are not an effort to 
make voting in Texas more secure. These bills are part of a 
racist campaign to decide who gets the right to vote. These 
bills take power and choice away from the people of Texas and 
let the politicians decide who their voters are. Simply put, 
these bills are an attack on voters and on the rights 
guaranteed by the Constitution.
    But there is a solution. Congress must act. Congress must 
pass the For the People Act, which would end institutional 
barriers to voting and ensure all eligible voters can register 
and cast their ballot. Congress also must pass the John Lewis 
Voting Rights Act to restore and strengthen the landmark Voting 
Rights Act. We must seize this moment to restore the vision of 
America as a Nation of rights, where government derives its 
power from the people, not the other way around.
    Representative Thompson, Representative Collier, 
Representative Bernal, thank you for your bravery and fearless 
commitment to protecting voting rights. To our other witnesses, 
thank you for being here today. I thank my colleagues, and I 
yield back.
    Mr. Raskin. Thank you so much, Chairman Maloney. Before I 
recognize Mr. Comer, I am going to ask unanimous consent to 
waive on, for the purposes of questioning only, Mr. Veasey and 
Mr. Sarbanes. And without objection, we will waive them on.
    And I now get to recognize the ranking member of the full 
Oversight and Reform Committee, Mr. Comer.
    Mr. Comer. Thank you, Chairman. The hearing title today 
claims there is an assault on voting rights in Texas, which 
would be very troubling if it were true, but it isn't. Your 
hearing title implies a big lie. Today, Democrats are holding 
the hearing to convince us of the necessity of their bill, H.R. 
1, that would Federalize elections across this country, funnel 
taxpayer money to politicians, and prevent commonsense and 
popular integrity measures, such as voter ID. Once again, 
Democrats are engaging in spectacle over substance while 
conducting no real oversight.
    There are multiple ongoing crises in our country that need 
to be addressed. Americans are suffering as a result of 
President Biden's inflation, border, and crime crises. We have 
asked repeatedly for a hearing on President Biden's border 
crisis, including the welfare of migrant children who have been 
held past the legal timeframe in crowded facilities in the 
middle of a pandemic. Yet Democrats have held no hearings, nor 
have called on Biden Administration officials to answer 
pressing questions about the gross mismanagement at the 
southern border.
    We have also called for hearings on other areas of waste, 
fraud, abuse, and mismanagement in the Federal Government, our 
committee's core mission, but Democrats have ignored these 
requests. Because Federal bureaucrats have not returned to the 
workplace, veterans have waited for almost a year--a year--for 
their records from the National Archives and Records 
Administration. This massive backlog is delaying the benefits 
to which they are entitled, yet no hearings from this 
committee. Hundreds of billions in pandemic unemployment relief 
have been stolen by international crime organizations.
    Again, there has been no hearing to understand how U.S. 
taxpayer dollars were so badly managed or the damage it caused 
to our national security. No wonder the Democrats on this 
committee received an ``F''--an ``F''--in congressional 
oversight by the Lugar Center. Americans deserve better.
    Instead of conducting real oversight, Democrats are holding 
a hearing to celebrate their theatrical exit of over 50 Texas 
Democrat legislators from their state to prevent debate on 
legislation they simply don't like. These Democrats fled Texas 
and paralyzed the Texas House, which cannot proceed with debate 
or voting legislation important to Texans, including voting 
integrity measures. During their super spreader stunt, 
Democrats flew to D.C. in two private charter jets, stayed in 
downtown hotels, and met with the Vice President, the Speaker, 
and other congressional leaders. They spread COVID-19 all over 
D.C. and made sure to share their vacation experience all over 
social media to fundraise for their campaign and expenses. 
Unfortunately, this stunt likely pushed D.C. into the 
substantial spread zone, and we know what that will mean for 
our children: no in-person school as Democrats continue their 
quest to command and control our lives.
    If these Democrats actually cared about voting rights, they 
would care about the right of Texans to have their voice heard 
through their duly elected Representatives. Their childish 
theatrics prevented the entire state legislature from debating 
and voting on important matters during the special session. 
Their actions have disenfranchised all voters throughout the 
state of Texas. The Texas bills being debated provide 
commonsense voting integrity measures, such as extending a 
simple voter ID requirement to absentee ballots and 
standardizing and expanding early voting access. Unfortunately, 
because Texas Democrats fled their state for Washington, that 
process cannot proceed as designed.
    I hope our committee will see the light in this partisan 
charade and start conducting real oversight. The American 
people are counting on us to safeguard their government from 
waste, fraud, abuse, and mismanagement. That is the reason this 
committee exists. Thank you, Mr. Chairman, and I yield back.
    Mr. Raskin. Thank you very much, Mr. Comer, for your 
opening statement. And I do want to remind the committee 
members, we are operating under the rules and guidance of the 
Capitol physician which is, please have your masks on when you 
are not speaking. Thank you, Mr. Comer, for demonstrating good 
public health manners there. And members will not be recognized 
if they are not wearing their masks when they are not speaking.
    It is now my great privilege and honor to introduce our 
witnesses today. Our first witness is the Honorable Senfronia 
Thompson, Texas State Representative and member of the Select 
Committee on Constitutional Rights and Remedies of the Texas 
legislature. Then we will hear from Nina Perales, who is vice 
president of litigation at the Mexican American Legal Defense 
and Educational Fund. Next, we will hear from the Honorable 
Nicole Collier, Texas state representative and chair of the 
Texas Legislative Black Caucus. Next, we will hear from the 
Honorable Travis Clardy, who is a representative in the Texas 
State legislature. And finally, we will hear from the Honorable 
Diego Bernal, Texas state representative and member of the 
Mexican American Legislative Conference.
    The witnesses will please rise or be unmuted so we can 
swear them all in. Wherever you are, please raise your right 
hands.
    Do you swear or affirm that the testimony you are about to 
give us is the truth, the whole truth, and nothing but the 
truth, so help you God?
    [A chorus of ayes.]
    Mr. Raskin. Let the record demonstrate that the witnesses 
all answered in the affirmative. Thank you very much.
    Without objection, your written statements will be made 
part of the record.
    With that, Representative Thompson, you are now recognized 
for your testimony. Before you begin, I want to recognize also 
the presence of our distinguished colleague from Texas, Ms. 
Lizzie Fletcher, from Houston.
    Representative Thompson, you are recognized for your five 
minutes.

  STATEMENT OF THE HONORABLE SENFRONIA THOMPSON, TEXAS STATE 
REPRESENTATIVE; AND MEMBER, SELECT COMMITTEE ON CONSTITUTIONAL 
                      RIGHTS AND REMEDIES

    Ms. Thompson. Thank you, Chairman Raskin and Ranking Member 
Sessions. We were honored to see our colleagues from Texas. 
Pete Sessions, it is always good to see you. Chip Roy came over 
early, and we had an opportunity to chat with him for a moment. 
And, of course, we are happy to see the new freshman colleague 
up here in Pat Fallon. We miss him in Texas, but we know he is 
doing a good job up here.
    Mr. Chairman, I was sitting there listening to the 
comments, opening statements that were made, and I had to take 
a step back and kind of look at the history that I have been 
able to perceive in Texas. But it is very difficult for me to 
look at the history of the progress that maybe African 
Americans may have made in this country without looking back at 
the struggles that we have gone through and the struggles that 
we keep going through. I can understand the position of some of 
the persons who spoke earlier because they have been a part of 
the privileged society that I have never been a part of. What I 
have been concerned about, listening to them, is their 
inability to be able to stand in other people's shoes and 
recognize that the rights that they take for granted to vote in 
this country, even though we are all Americans, we don't all 
share those same rights. I just want to just digress a minute, 
if I can.
    I am in my 25th session of the legislature, and I have been 
privileged to represent persons in my district. And one of the 
members said, well, you shouldn't be here, you should be back 
in Texas doing this and doing that, those sort of things, and I 
listened carefully. I am here because this is the seat of 
democracy, and my people who I represent has a right to be able 
to vote unabridged just like all of you. You may not want to 
recognize it, but we are supposed to have those rights. That is 
why I am here. I am here fighting for them, and I have the 
right to fight for them. And someday, I am hoping that I don't 
have to keep fighting this fight, that my grandchildren and my 
grandchildren's children would not have to keep repeating these 
struggles.
    I was born in Texas, and I can tell you just from my 
testimony, as a child, my grandmother used to work and earn $2 
a week working for the privileged, and out of those $2 a week, 
she used to save pennies and nickels to be able to buy a poll 
tax. The poll tax, as you know, was created to give people 
opportunity to invest in public education support, but if you 
were white, the grandfather clause took care of you. You didn't 
have to pay the poll taxes, but my grandmother was African 
American and she had to pay those poll taxes and to pay $1.25. 
It was difficult to save money. My grandfather couldn't afford 
to buy poll taxes because they both couldn't afford to have 
poll taxes. It was too costly. She had to ride a bus to get to 
the poll tax, a place for colored people to go and vote, and it 
wasn't a short distance and transportation was certainly not 
accessible as it is today.
    I can tell you when I first voted 60-some years ago, I had 
to buy a poll tax, and they did not exempt me as they did 
others. And Texas has had a poll tax, and we did not get rid of 
our poll tax until 1966, even though the law had been passed. I 
could not vote. My grandmother could not vote in the primary, 
Chairman Raskin. And you are wondering why. Because she was 
Black, and primaries was for white only, and it was not until 
Smith v. Allwright, a case in Texas, tried and won by Thurgood 
Marshall, that gave African Americans a right to have a say in 
their primary democracy. We are not talking about just 
something that you can go to store and use for a little while 
and toss aside because you have gotten tired of it. We are 
talking about something that makes and breaks this country when 
we are talking about democracy to vote.
    You damn right I left Texas, and I am glad I did. And you 
know why, Pete, I left? I left Texas to give my people a right 
to be able to vote without them being infringed upon. I had a 
chance to vote during 2010 and 2012 when poll watchers came to 
my precinct where I vote personally. Let me tell you the 
chilling effect of that. They had people, Chairman Raskin, that 
looked like they was from the Proud Boys walking, looking at 
you like you were in the wrong place. In a minority area, that 
has a chilling effect. That chilling affect is depression of 
voting. I don't know what you call intimidation, but 
intimidation by any other name is still intimidation. It is 
intimidating, and the word gets out that these people are at 
your polls looking at you like they want to arrest you, keep 
you from voting, and people, as a result of that, do not go and 
cast their vote. I am the voice of my constituents, and if I 
had to walk to Washington, DC, to get you to hear what I had to 
say, to fight for my constituents, I will use any means 
necessary to get my point over. I will meet with anyone if they 
allow me to talk to them about preserving and protecting the 
rights of my constituents to be able to have a say in their 
democracy.
    The Governor's own secretary of state said this: ``2020 
elections was the most transparent and secure elections.'' Now, 
she's not there anymore, but that was his secretary of state.
    Mr. Raskin. Thank you very much for your testimony, 
Representative Thompson. I look forward to our questioning. 
Before I go to Representative Collier----
    Ms. Thompson. Thank you.
    Mr. Raskin [continuing]. I just want to recognize the 
arrival of Representative Marc Veasey from Texas, who is with 
us, too, so welcome.
    Representative Collier, you are now recognized for your 
five minutes.

    STATEMENT OF THE HONORABLE NICOLE COLLIER, TEXAS STATE 
   REPRESENTATIVE; AND CHAIR, TEXAS LEGISLATIVE BLACK CAUCUS

    Ms. Collier. Thank you, Chair Raskin and members of the 
committee. It is an honor to be here before you to provide 
information and to share our story about what brought us here 
to Washington, DC. My name is Nicole Collier. I currently am 
elected to serve House District 95 for the last five 
legislative sessions. I currently am also elected to chair the 
Texas Legislative Black Caucus, which was founded in 1973 with 
eight members. Today we have 19 members. We are a bipartisan, 
bicameral organization with the goal in mind of addressing the 
issues affecting African Americans.
    I want to go back to some of the things that were talked 
about, and some of you may be asking, you know, why did we ring 
the alarm. Why are we raising the concern about what is going 
on in Texas? Well, it is not just happening in Texas. It is 
happening across our country. We have seen in a concerted 
effort in various states to pass legislation that would limit 
access to the ballot. It would not expand access. It would 
reduce access, and what is happening in Texas is no different. 
You heard about the Republican-appointed secretary of state who 
said that the 2020 elections were smooth and secure, and yet we 
still found ourselves facing legislation to address the 
elections.
    I want to respond to some of the things that were 
mentioned. Of course, there is some other legislation that was 
put on the call from the Governor, one of them being critical 
race theory, which would whitewash the historic systemic racism 
that has happened in our country, also is limiting access to a 
legal abortion. That is also on the call. And I would remind 
everyone that the 13th check, our teachers, retired teachers, 
have not had a cost-of-living raise in years, and the Democrats 
have always advocated for additional funding for our teachers, 
including the 13th check. In fact, that same bill passed 
through the Democratic committee quickly and died in the 
Republican-controlled Calendars Committee. So, we have stood 
for our teachers all along.
    Another thing that I want to remind you of is that there 
was a mention of the walkout of the quorum. That is a 
procedural method, just like the filibuster is in the Senate. 
If they don't like a policy that is being presented in the 
Senate, they filibuster. That is just part of the rules, and 
that is what we have come to see. But what happened in Texas 
was that we tried to work with our colleagues. We provided 
amendments. Miss T, which is Representative Thompson, sat 
through more than 23 hours of testimony. Four hundred people 
came and spoke against this bill, and yet only 65 for it. All 
the amendments that were presented by our Democratic colleagues 
were declined on party lines. In fact, there was a vote 
immediately following the hearing to pass this bill, so there 
was no interest, there was no even attempt to work, and 
compromise, and collaborate with our colleagues on this. Our 
backs were against the wall. There was no more discussion. We 
saw the writing on the wall just like it was during the regular 
session.
    I was on the Conference Committee for Senate Bill 7 during 
the regular session, and it is no different than what we saw in 
this special session. The bills that were filed would do more 
harm than good. They would limit access to the polls. I have 
heard people say that we are opposed to voter ID. Well, let me 
tell you Texas has been found to violate the Voting Rights Act 
of 1965 every decade since its passage. We cannot out-mobilize 
racist gerrymandering, and when you talk about having somebody 
represent the interests of the people, it only reflects the 
racist gerrymandering that has been taking place in Texas, so 
we don't have people that represent the communities that they 
represent. We need to make sure that we have communities, they 
have to have the ability to represent, to elect a candidate of 
their choice, someone that represents their values, and we are 
not doing that in Texas.
    I just want to talk about one of the provisions in the 
bill. Miss T, and forgive me, say, for instance, she registered 
to vote 20 years ago. There is a provision in this bill that 
would require someone who is eligible to vote by mail to insert 
the last four digits of their driver's license or social 
security number or say they don't have one now. Now, Miss T may 
have registered 20 years ago. She may not remember which one 
she provided when she originally registered to vote. Under the 
provisions of this bill, if she put down the other number, even 
though it is the correct one, her ballot would be rejected, and 
there is no cure opportunity within this bill to cure her 
ballot, and she would not even know that her ballot had been 
rejected. So, that is just one instance.
    And I welcome the opportunity to continue this conversation 
to provide additional information about why we sounded the 
alarm.
    Mr. Raskin. Thank you, Representative Collier, for your 
testimony.
    Mr. Sessions. Mr. Chairman?
    Mr. Raskin. I am sorry?
    Mr. Sessions. Mr. Chairman?
    Mr. Raskin. Yes?
    Mr. Sessions. I would ask that you remind each of our 
witnesses that they have taken note to tell the truth. Subject 
to that, Texas had a COLA in 2013 for teachers. The gentlewoman 
had led us to believe there were no COLAs that were given, no 
updates.
    Mr. Raskin. OK. I----
    Mr. Sessions. Mr. Chairman, that is a direct lie before 
this committee.
    Mr. Raskin. OK.
    Mr. Sessions. That is not truthful.
    Mr. Raskin. Without entering into the merits of that----
    Mr. Sessions. Well, we need to because there is no reason 
to give your opening oath.
    Mr. Raskin. OK.
    Mr. Tlaib. Chairman, may I--I am sorry. I don't know what 
the procedure is--it is Congresswoman Tlaib--but that goes 
directly to her character. She should be able to respond to 
that.
    Mr. Raskin. OK. Well, you know what I would like to do? I 
want to continue with the witnesses. Obviously there some 
factual difference in point of view about a teacher COLA raise. 
I am not quite sure how apt it is to our hearing. So, let's 
keep going, and we can come back and we will clarify that. I am 
sure there was no ill intent on either part.
    Mr. Sessions. Mr. Chairman?
    Mr. Raskin. Yes?
    Mr. Sessions. It is part of her testimony, and it was meant 
to mislead this committee.
    Mr. Raskin. OK. And I am sure that there will be a 
clarification if there was any misstatement there. Why don't we 
go ahead and recognize Representative Clardy, who is now 
recognized for five minutes for his testimony.

     STATEMENT OF THE HONORABLE TRAVIS CLARDY, TEXAS STATE 
                         REPRESENTATIVE

    Mr. Clardy. Thank you, Chairman Raskin, and Ranking Member 
Sessions, and members of the committee for the opportunity to 
speak about election integrity in Texas. For the record, my 
name is Travis Clardy, and I am proud to represent House 
District 11, serving the people of Cherokee, Nacogdoches, and 
Russ Counties in the Texas House of Representatives.
    The right to vote by a secure private ballot is a 
fundamental right in this country that should be protected, and 
the laws protecting our vote should be debated honestly and 
vigorously, and that is exactly what we have endeavored to do 
in Texas for the last eight months. While I am grateful for the 
invitation to be here, I believe this conversation is best 
suited for the Texas House floor and our state capital in 
Austin rather than a Washington, DC, committee hearing room.
    However, I must take some exception to the premise of why 
we were invited to testify. To be sure, there is no assault on 
voting rights in Texas, but there is, in fact, a real danger 
posed to our democracy, not the well-intentioned and reasoned 
provisions in H.B. 3 to better secure our election processes, 
but, instead, the growing threat of practices too long 
tolerated that deprive individuals of voting for the candidates 
of their choice and diluting the essential democratic concept 
of one person, one vote. Moreover, while I appreciate the hard 
work and effort trying to pass a one-size-fits-all Federal 
omnibus election bill, I am reminded of that familiar Texas 
adage to be leery of those who pronounce they are with the 
Federal Government and they are here to help.
    Texas has on her books a strong and effective set of 
election laws and a dedicated group of election professionals 
that I believe can and should be the envy of every State in the 
Union. This is most recently reflected in the outcome of this 
Tuesday's runoff election for congressional District 6 and the 
victory of our Texas House colleague, Jake Ellzey. Once again, 
Texas enjoyed a safe, secure, timely, and well-run election in 
which we can all take pride with trust and confidence.
    But first, let me say this to my Democratic colleagues 
there with you today. It is time to come home. Enough is 
enough. You have had your fun. It is time to get back to work. 
You know as well as I do this legislation has been negotiated 
in good faith and deserves your attention. House Bill 3, the 
reason we are here today, is a sound and tailored bill to 
improve existing law, and like every bill, it can get better 
through debate and deliberation. But unfortunately, until our 
colleagues decide to come home, that is not possible. In Texas, 
we allow everyone to submit amendments to be argued during 
floor debates. It is an inclusive process that has served us 
well and is available to all those who want to participate. 
Simply put, we should want to make it easier to vote and harder 
to cheat.
    House Bill 3 expands voting hours. It makes it possible for 
voters to correct mistakes on their mail-in ballots. It 
penalizes vote harvesting, and it extends identification 
requirements for mail-in ballots. In fact, it is such a good 
bill that the professional associations representing our 
election administrators and our county clerks around Texas 
testified favorably that, with a few technical process changes, 
they would change their formal positions from neutral to 
actually supporting the bill, which we all should want.
    Now, I would like to address some of the misconceptions 
that have made their way around the national media concerning 
House Bill 3. First, House Bill 3 does not limit hours of 
voting. Actually, House Bill 3 expands voting time from current 
law of 7 to 7, to 6 a.m. to 10 p.m., an increase of four hours 
per day. Further, employers are required to allow employees to 
vote or face criminal sanctions. Second, House Bill 3 does not 
eliminate curbside voting. In Texas, curbside voting is allowed 
for disabled and other eligible voters, an accommodation that 
allows these citizens to drive to the polls and participate in 
person rather than mailing in their ballots, which remains an 
option. Third, poll watchers cannot intimidate voters. This 
bill does not permit voter intimidation and observers cannot 
watch a voter actually cast his or her ballot, nor can they 
film election activity. Election observers can be ejected from 
the polling place if they interfere in the election process or 
commit a breach of the peace or violation of law. Fourth, House 
Bill 3 does not allow mail-in ballots to be thrown out 
automatically. Rather, for the very first time, it allows the 
voters to cure their mistakes so all valid votes can be 
counted. Fifth and finally, House Bill 3 does not impose 
unreasonable burdens on voter assistance. It simply expands 
current law regarding the required information and the 
assistance before aiding the voter.
    But, folks, let's make no mistake about it. Illegal voting 
does occur in the state of Texas, and it cannot be excused. We 
must have zero tolerance when it comes to voter fraud. 
Confidence in our elections, like faith in our judiciary and 
trust in our law enforcement, is vital to the perpetuation of 
the American experiment, and it is our best and utmost 
assurance for the survival of our republic. This is the duty we 
all have to our constituents and the oath that we all took our 
Constitution, to our Nation, and to our state. I believe we are 
all up to the task.
    Thank you for the opportunity to be here today, and I look 
forward to answering any questions. Thank you.
    Mr. Raskin. Thank you very much for your testimony, 
Representative Clardy. We come now to Nina Perales, who is the 
vice president of litigation at the Mexican American Legal 
Defense and Education Fund. Ms. Perales, you are recognized for 
five minutes.

   STATEMENT OF NINA PERALES, VICE PRESIDENT OF LITIGATION, 
      MEXICAN AMERICAN LEGAL DEFENSE AND EDUCATIONAL FUND

    Ms. Perales. Thank you. Good morning. Thank you for the 
opportunity to testify today.
    Two bills currently pending in the Texas legislature, S.B. 
1 and H.B. 3, seek to suppress minority voter participation and 
thwart the emergence of a more racially diverse Texas 
electorate. The Texas bills deprive Latino voters of lawful 
voter assistance. A significant number of Latino, as well as 
Asian-American voters, rely on language assistance in the 
polling place from family members, friends, or neighbors. 
Article 6 of H.B. 3 requires voter assistors to swear under 
penalty of perjury that they will restrict their assistance to 
reading and marking the ballot. Article 5 of the S.B. 1 
requires the assistor to swear that the assistor did not 
encourage the voter to choose them. H.B. 3 and S.B. 1 both 
require the assistor to secure a statement of eligibility from 
the voter.
    These voter assistance restrictions violate the Federal 
Voting Rights Act, which guarantees voters the right to 
assistance beyond just reading and marking the ballot, and also 
does not require a voter to explain his or her need for 
assistance. The First Amendment to the U.S. Constitution and 
Section 208 of the Voting Rights Act guarantee individuals the 
right to encourage a voter to rely on them for assistance and 
guarantees voters the right to choose assistors who encouraged 
them. In addition, these bills create new paperwork 
requirements of assistors that will slow down the voting 
process and increase wait times at polling places in 
predominantly Latino neighborhoods. None of these provisions 
are based on any evidence that voters who need assistance are 
involved in fraud.
    Second, the Texas bills invite voter intimidation by poll 
watchers. Section 3 of S.B.1 and Section 4 of H.B. 3 strip 
voters of the protections of privacy and security in the 
polling place and invite vigilantism by poll watchers. The 
bills empower poll watchers to roam around the polling place 
and stand close to voters while they are voting. At the same 
time, the bills punish polling place officials with up to a 
year in jail and a $4,000 fine for refusing to accept a watcher 
even when a poll worker is concerned that the watcher is 
disruptive. Poll workers face the same penalties for 
positioning themselves to protect a voter from a watcher who is 
trying to intimidate that voter. Section 4 of H.B. 3 prohibits 
election officers from removing disruptive or even violent poll 
watchers unless the poll watchers commit a second infraction. 
This means poll watchers can scream, yell, physically impede, 
frighten, or drive off voters, and must still be allowed to 
remain in the polling place unless they were previously warned 
and commit a violation again. These provisions ensure that not 
only will voters be intimidated by unrestrained poll watchers, 
but election officials will also be intimidated by the threat 
of severe penalties for stepping in and trying to protect 
voters from poll watcher interference. Latino voters in Texas 
have borne the brunt of more than a century of voter 
intimidation at the polls. There is every reason to believe 
that removing security measures inside polling places will 
result in more intimidation of Latino voters.
    Third, the Texas bills continue historic as well as recent 
racial discrimination in voting. Section 1.04 of Senate Bill 1, 
which was amended out of the bill after MALDEF's public 
testimony, created a voter purge surgically aimed at 
disenfranchising naturalized U.S. citizen voters. This was the 
same voter purge launched by Texas against 98,000 voters in 
2019 and blocked by a Federal court order. Texas settled that 
case and agreed not to use this policy again, but S.B.1 brought 
it back with the same predictable result of excluding 
primarily, what is only the latest in a long history of 
discrimination against Latino voters in Texas. The U.S. Supreme 
Court in 2006 states, ``Texas has a long, well-documented 
history of discrimination that has touched upon the rights of 
African Americans and Hispanics to register to vote or to 
participate otherwise in the electoral process.'' That case has 
since been followed by a U.S. Supreme Court ruling in 2018 that 
Texas had again discriminated against Latino voters. S.B.1 and 
H.B. 3 are part of this recent and older history of racial 
discrimination and reflect a continued effort by Texas 
officials to suppress minority political participation.
    Thank you for your time, and I am happy to answer any 
questions of the committee.
    Mr. Raskin. Thank you, Ms. Perales, for your testimony. And 
finally, we will hear from the Honorable Diego Bernal, who is, 
again, a representative and member of the Mexican American 
Legislative Conference.

     STATEMENT OF THE HONORABLE DIEGO BERNAL, TEXAS STATE 
   REPRESENTATIVE; AND MEMBER, MEXICAN AMERICAN LEGISLATIVE 
                           CONFERENCE

    Mr. Bernal. Thank you, Chairman. Thank you for having us. 
The testimony of Representative Clardy and the testimony of Ms. 
Perales can't occupy the same space. And so, what I thought I 
would do is explain how a small section of the bill would 
affect a voter in real time in their life, to get away from the 
platitudes and more to the policy itself. And so, here, let's 
say we have a voter who's sixty-two. She prefers Spanish and is 
not super comfortable with her English. Let's call her Senora 
Nicole, and she's always voted with an assistant. In this case 
the assistant would be me, her neighbor. I notice on Election 
Day that we haven't spoken, so I go next door. I knock on her 
door. She answers.
    ``Hi, Senora, it's Diego, have you voted?''
    She says she hasn't. ``OK, well, let's go vote. I'll help 
you like I always do, grab your keys''--grab your [inaudible], 
I always say--``I'll bring the car out front, come out, and 
I'll take you to the polling place.''
    And so we go. When we get to the front of the line, the 
first thing I encounter that's new, as her assistant, is a new 
form that I have to fill out, and that form asks for my name, 
my address, my relationship to the voter, and it asks that I 
attest that I haven't been paid by a candidate, a campaign, or 
a PAC. I do not know what the form is for, I don't know who 
gets it, I do not if it is private. It takes time to fill out, 
in a neighborhood like ours--which is primarily Latino--it 
might add to the line, the length of the line, but we power 
through that.
    The next thing we encounter is the oath of the assistant. 
There are three new things in the oath that this bill would 
require. The first, generally, is that it is under penalty of 
perjury, which means that a violation of it, even without 
intent, would result in a state jail felony. The next piece 
asks me to affirm that she has represented to me that the only 
reason why I'm her assistant is because she cannot see, read, 
or write.
    In the past, a voter assistant was able to help navigate 
the polling place, interact with poll workers and answer 
questions. That is gone. All I can do is simply translate, and 
I have to say, under penalty of perjury, she has told me that 
that is the only reason why I'm helping her. I've known her for 
years. We've never had that conversation. I am not sure if I am 
about to perjure myself. I don't know if I'm about to commit a 
crime. And so, some people will stay beyond this point, but 
some people will go.
    Let's say we get past that part of the oath. There's a 
third part of the oath that says that I must attest and affirm 
that I did not coerce or persuade her, and in the Senate 
version it says, ``encourage her,'' to choose me as her 
assistant. And at that moment, I recall that moment the 
conversation that we had on her front door:
    ``Senora have you voted? Let's go. I will take you. I will 
be your assistant. Let's do it like we always do, grab your 
stuff, meet me outside.''
    Did I persuade her? Did I encourage her? Did I coerce her? 
I'm not sure. At that point, as I'm filling that out, I'm 
worried that I may have--and am about to--break the law. Again, 
some people will stay, but some will go.
    Let's say we get past that part, and we get to the actual 
voting machine. There, let's say she is asking me a question, 
which she cannot really do, but I'm just translating. All I can 
do is translate, that's it, I can't do anything else--I'm 
translating state board of education race and a school board 
race. It is difficult, but we're not breaking the law.
    There is a partisan poll watcher in the polling place, who 
now has free range and free roam to get close enough to any 
voter to see and hear election activity. That is the law. They 
don't know what we're saying, but they might not like it. They 
might not like the tone, they might not like the language, they 
might not like the way that we look. They are allowed to 
disrupt, harass, to physically move, to push us away, and the 
only thing that the election judge there can do to them is give 
them a warning, because the law says--Article 4, Section 4.01, 
Article G, page 11, starting on line 11--it says that a 
partisan poll watcher can break the election code or the penal 
code and the only thing the election judge can do to them is 
give them a warning. The election judge can only remove them if 
they themselves saw a second infraction. It does not matter if 
everyone in the polling place saw it themselves and reported 
it. The election judge has to see it themselves to remove that 
partisan poll watcher.
    The manager at Target has more latitude to protect their 
customers than an election judge in Texas would to protect 
voters under this bill. Some of the opponents may say, well, 
can't they call the police? Well, yes they can, they can call 
the police. But that takes time. The police have to come and 
assess the situation. Voting at that polling place would stop 
or come to a halt. And just using my hometown of San Antonio as 
an example, there are over 300 polling places. The largest 
shift at any given time of SAPD is about 150 officers who have 
other and arguably better things to do. What happens to us? Do 
we finish her casting her ballot? If we do, does she want to 
come back if that's the new environment? What's the word of 
mouth when we get home as that experience spreads like 
wildfire, bad [inaudible]? That can't possibly be who we are, 
and this idea that this bill makes voting easier in this 
instance, I don't see how.
    There are no cases of voter fraud relating to voter 
assistance. In fact, just to give you numbers, and I will wrap 
up.
    Mr. Raskin. Please, you are over, so you can make your 
final point.
    Mr. Bernal. There are 154 prosecutions of voter fraud in 
the past 17 years in Texas out of 94 million votes cast. The 
likelihood of voter fraud in Texas is less than any one of us 
being struck by lightning.
    Mr. Raskin. Thank you, Representative Bernal, for your 
excellent testimony, and our members have been very patient, so 
I am going to hold off on my questioning and allow Mr. Mfume to 
go, and then we will go directly to the ranking member.
    Mr. Mfume. Thank you very much, Mr. Chair and members of 
the committee. Mr. Chairman, I want to thank you, as I have 
done privately repeatedly, for holding this hearing and 
bringing us to this point, and your leadership on this is very, 
very important. And there is no real redundancy in talking 
about something so near and dear to the fabric of this society 
as is voting. I want to also thank the state legislators who 
have come here, those who are also on the Zoom with us 
electronically, for your participation, and, if I might say 
also, for your courage.
    This whole issue, Mr. Chairman, is an issue that there has 
been a lot of discussion about, but one of the things that is 
clear, and that is that unless we have real integrity in our 
system where everybody feels like their vote counts, we are 
never going to get to where we need to be. In fact, we will 
find ourselves repeating many of the problems and the issues of 
the past.
    Now, I don't want to be funny here, but this is almost like 
the old Yankee manager, Yogi Berra, who once said: ``Deja vu 
all over again.'' The issue of voter integrity, voter 
intimidation, and the burdens that are put on voters is 
something that has revisited itself in a mean and ugly way. Now 
years ago, between the 1890's and the 1960's, there were real 
efforts at voter intimidation and denial. It all started, as we 
know, with the good old grandfather clause that said even 
though you may be free, you cannot vote unless your grandfather 
voted. Well, your grandfather was a slave, so he couldn't vote, 
and, therefore, you couldn't vote. And when that became so 
obviously ugly and intimidating, states changed up and created 
things known as the literacy test, where, throughout that 
period of time up until 1965, in many states, you had to tell 
how many bubbles were in a bar of soap just to be deemed 
intelligent enough to go out and cast a vote. And when that 
came under further scrutiny, states changed it and said, OK, 
well, now you have to be able to recite the Constitution from 
beginning to end to be able to be qualified to vote.
    I just think that it is ludicrous for us to think that 
somehow now, the things that we are facing, particularly in 
Texas and elsewhere, are not akin to the same laws that were 
put in place then with the same objective and the end result: 
to suppress turnout and to, in many instances, deny the ability 
of all people to vote. Now, I know that these state legislators 
who are here have come here because they honestly and dearly 
believe in this concept of one person, one vote, so I was a 
little shocked earlier to hear accusations by some of my 
distinguished colleagues that the legislators from Texas ought 
to go back home and do what they were elected to do, like they 
were somehow abdicating their responsibilities by ``denying a 
quorum.'' And yet, Mr. Chair, repeatedly in this committee and 
even on the floor of the House, there are attempts to deny a 
quorum because that is what you have the right to do, and you 
have the right to use every tool available as a legislator, 
whether you are in a city council, a state legislature, or in 
the Congress, to further your point. We do that all the time. 
So, I think it is a little disparaging to suggest that these 
men and women are abdicating responsibilities when, in fact, 
they are using constitutional abilities and guidelines to do 
what they have to do.
    Mr. Chairman, I believe more than anything else that when 
we look at the disappearance of preclearance from the Voting 
Rights Act, when we look at all the problems that have started 
since then, we would not have been at this place had not the 
former President been declared the winner of the election in 
the state of Texas. That started an ugly ball rolling. And now 
all of a sudden, there are these efforts to ``protect voters'' 
and ``protect their rights'' that did not exist, were not 
talked about, and did not get voted into law previously. This 
is a new phenomenon in an old ball game, and it is a phenomenon 
that, quite frankly, cries out for us to pass the John Lewis 
Voting Rights Act and to pass H.R. 1, the For the People Act, 
so that we can put to rest once and for all these types of 
attempts.
    I have exhausted my time, Mr. Chair. I, again, want to 
commend you. I want to commend the legislators. And I want to 
remind my colleagues that as legislators, we have every right 
to use what is in the Constitution that we are governed by to 
advance our cause, even if it means that denying a quorum. And 
I yield back, Mr. Chairman.
    Mr. Raskin. Congressman Mfume, thank you for your excellent 
remarks. And I turn it over now to my friend, the ranking 
member, Mr. Sessions, for his time for questioning.
    Mr. Sessions. Thank you very much, Chairman. I would like 
to engage perhaps Mr. Bernal or Mrs. Perales, please. Are 
ballots in Texas in the language that a person would need them 
to have, in other words, in English, Spanish, Chinese? Are they 
available?
    Mr. Bernal. Yes, sir.
    Mr. Sessions. So, they are available in the language of 
people. That is not backward. That is pretty important. I would 
like to ask you, Mrs. Perales, you said that Texas really had 
been held in discrimination for a number of years, and implied 
that Texas was discriminatory in their practices. But isn't it 
true that preclearance was required in certainly the Clinton 
and Obama Department of Justices, scrutiny of the bills, that 
every time related to the laws and the redistricting of Texas, 
would be reviewed by preclearance of Democrat and Republican 
Department of Justices?
    Ms. Perales. Well, Representative, I am not sure exactly 
what you are asking, but I will say that it depended on which 
President was in office at the time, but certainly doesn't 
subtract from the fact that when we brought these claims in 
Federal court, and both of the cases that I mentioned were 
claims successfully brought by MALDEF, my organization, the 
U.S. Supreme Court held. That is not administrative review by 
an agency. The U.S. Supreme Court held that Texas had in its 
laws discriminated against Latino voters. I would like to add 
an answer to the one that was provided by the Representative--
--
    Mr. Sessions. What year was that, ma'am?
    Ms. Perales. Oh, well, the cases that I mentioned in my 
testimony, 2006 in a case I argued before the U.S. Supreme 
Court, and also in 2018 on a claim that MALDEF brought related 
to racial gerrymandering, successfully, against Latino voters 
in 2018. The answer that Representative Bernal provided earlier 
needs to have something added to it, which is that although 
Texas is forced by Federal law to provide bilingual ballots, 
Section 208 of the Voting Rights Act requires a broader scope 
of assistance. And the Fifth Circuit tells us that in the case, 
Organization of Chinese Americans, a bilingual ballot is not 
enough, Representative, and the courts have told us that. 
Voters who are limited English proficient have the right to 
take an assistor with them to help them navigate the polling 
place, interact with poll workers, read another----
    Mr. Sessions. Thank you very much. Mr. Clardy, can you 
please address that issue about the bills that would be before 
us? I have a disabled son. I have been with him. He marked his 
own ballot, but I helped him. Could you please talk to us about 
what is before us with these bills related to what the 
gentlewoman speaks of?
    Mr. Clardy. Sure, and thanks. I think we had, and I will 
use this word in its truest sense, I think very liberal laws as 
it relates to disabled people would be able to vote. So, in the 
instance of your son, we have curbside voting. It will be 
available throughout the state, all of our 254 counties, where 
they can drive up and an election official will come out and 
help assist and provide that ballot and help those people who 
are eligible for curbside voting to be able vote. That has been 
our law for some time. Likewise, those individuals are 
available--they have a right, unlike most other states, I 
think, in the Union, to cast a mail-in ballot. They register. 
They request the mail-in ballot, and it will come to them, and 
they can vote and have that returned. And if they choose to, 
they can actually bring it back in and have that ballot dropped 
off.
    Mr. Sessions. Thank you very much. Representative Clardy, 
are you aware of the social worker at a state assisted living 
center in Limestone County, Texas, where this person has been 
charged with 134 felony counts of acting as an agent of 
election fraud by putting in applications and forging 
signatures? Are you aware of that, sir, and would this be 
addressed in the new law? This happened in November 2020.
    Mr. Clardy. Congressman Sessions, I am not familiar with 
the specifics of that case, and, again, as you know, it is 
really inappropriate for us to comment on pending matters. But 
I can tell you that, in addition of that case, there are 50 
cases pending right now, and that is just from the Office of 
Attorney General, that have hundreds and hundreds of counts, 
that exist. There is another approaching 400 cases that are 
being investigated. Those 50 cases I mentioned, those have been 
presented to a grand jury, and they have been true billed and 
indictments issued. There is a case----
    Mr. Sessions. Thank you very much, sir. Mr. Chairman, I 
would ask unanimous consent to engage in the record and place 
in the record these 400-some cases that are being presently 
handled in the state of Texas for voter fraud.
    Mr. Raskin. Great. Without objection at all, under the----
    Mr. Sessions. Thank you.
    Mr. Raskin [continuing]. The current voting fraud statute.
    Mr. Raskin. I now would invite Debbie Wasserman Schultz for 
her five minutes of questioning.
    Ms. Wasserman Schultz. Thank you. Thank you so much, Mr. 
Chairman. Similar to what we see now in Texas, right after the 
2020 elections, election supervisors and Florida Governor 
DeSantis heaped praise on the election process. He said, ``The 
way Florida did it inspires confidence, and I think that is how 
elections should be run.'' Yet just a few months later, 
DeSantis changed his tune because Donald Trump was emotionally 
incapable of accepting the results of the 2020 election, and he 
needed to whip the fringe of his party into a frenzy to further 
his own aspirations. The result was a Florida voter suppression 
bill that mirrors what we see proposed in Texas, making voter 
registration harder, limiting voting by mail, and curbing 
secure ballot drop boxes that 1-and-a-half million Floridians 
used in 2020. These blatantly anti-democratic bills are a 
solution in search of a problem, at the very least. During the 
pandemic, our state and Nation experienced a rare expansion of 
ballot access. We not only allowed people to stay safe, but 
also gave flexibility to communities of color who too often 
face voting obstacles.
    Representative Thompson, it is so good to see you again. 
Harris County, home of Houston, which you represent, led the 
way in expanding opportunities to voting last year. So, my 
question for you is, with all that Harris County did to make it 
easier for folks to vote during the pandemic, were there any 
resulting reports of voting irregularities that emerged later?
    Mr. Raskin. It is for you, Ms. Thompson.
    Ms. Thompson. I do not recall any, Debbie.
    Ms. Wasserman Schultz. OK. I don't recall hearing any 
either, and so it is helpful to have you underscore that. And, 
Representative Collier, is it fair to say that these expansions 
were particularly valuable to Black and Latino voters in Texas?
    Ms. Collier. Yes, thank you. Absolutely. We found that 
African Americans often have two jobs, and so being able to 
vote during the 24-hour period is very helpful. Being able to 
have drive-through voting is also helpful for those who have 
children. So, these were mechanisms, and I am not aware of any 
instances of voter fraud that have been prosecuted related to 
those mechanisms.
    Ms. Wasserman Schultz. Thank you. The Texas legislation 
that we are discussing today, my friends, would create criminal 
penalties for local election officials who send absentee ballot 
applications to all registered voters. I mean, these are the 
priorities of the Texas state government, which Harris County 
attempted to do last year before the effort was blocked by the 
Texas Supreme Court. In Florida, Senate Bill 90, also prohibits 
state and local officials--they doubled down on what was 
already prohibited in Florida by saying that mail ballots could 
not be sent to voters unless one was requested. Ms. Perales, 
can you explain how communities of color are particularly 
affected by a restriction like this on mail-in voting?
    Ms. Perales. Well, in Texas we have mail-in voting 
available, just to be clear, for those who are disabled, can't 
get to the polling place, and those who are over 65. So, we are 
talking generally, among all communities, predominantly the 
older population.
    Ms. Wasserman Schultz. I am sorry. Just to be clear, I am 
asking you about a restriction for a local official to not be 
able to proactively send out a ballot.
    Ms. Perales. Yes, and my point is that when you are an 
older individual, it can be particularly challenging to 
navigate the request of a mail ballot. A lot of folks don't 
have access online, and the process can be confusing. To have a 
local election official who can determine who is eligible, 
affirmatively send those applications, it is going to 
particularly benefit Black, Latino, and low-income voters.
    Ms. Wasserman Schultz. Thank you. Here is the icing on the 
cake of this legislation. Political parties in Texas would 
still be allowed to send out ballot applications, even as it is 
outlawed for local officials. So, Ms. Perales, how do you 
explain the discrepancy in treatment, and wouldn't the net 
result make it harder to vote? And then, Representative 
Collier, if you were designing a bill to combat voter fraud, 
which should be all of our goal obviously if there really is 
voter fraud, would you have started by targeting local election 
officials?
    Ms. Perales. With respect to making it more difficult to 
vote, yes. If somebody receives an application for ballot by 
mail and they want to fill it out and choose to fill it out, 
that is going to make voting more accessible for them. There is 
no reason on the face of the earth to prohibit a local election 
clerk, who has all of the correct information, from sending out 
ballot applications, and yet, at the same time, permit party, 
partisan folks within their organizations to be able to do that 
same mailing.
    Ms. Wasserman Schultz. Thank you. Mr. Chairman, can 
Representative Collier answer before my time is turned over?
    Mr. Raskin. Yes, and then your time is up.
    Ms. Wasserman Schultz. Thank you so much.
    Mr. Raskin. Ms. Collier?
    Ms. Collier. Thank you, Mr. Chairman. I would say, yes, 
local control is absolutely important because those individuals 
who are on the ground have a better grasp as to what is going 
on in their community and can address the needs of their 
community.
    Ms. Wasserman Schultz. I appreciate it. I yield back the 
balance of the time.
    Mr. Raskin. I thank the gentlelady, and I now recognize 
Representative Nancy Mace for her five minutes of questioning.
    Ms. Mace. Thank you, Mr. Chairman, and I want to thank Ms. 
Thompson. I was a state lawmaker for three years before I came 
to Congress. I represent the 1st congressional District of 
South Carolina, and South Carolina has had its own history, 
very bad history, with black South Carolinians, Black and brown 
and African-Americans. I recently took a vote to move statues, 
like Supreme Court Justice Taney, removing his bust out of the 
Capitol Rotunda because he wrote the Dred Scott opinion, the 
one that said that Black and brown and African Americans could 
not become citizens of the United States of America. I voted to 
move someone like Wade Hampton, who encouraged the murder of 
over 150 Black South Carolinians during his run for Governor. 
And so, I appreciate your comments about the `60's. I was not 
around then, but I have watched and read a lot of the history 
and seen the videos and seen the moments of violence against 
black America. So, I applaud your work on that. My 
understanding is you were elected in 1972 in Texas. Is that 
correct?
    Ms. Thompson. That is correct.
    Ms. Mace. Right, and I applaud you for making history, I 
imagine, in Texas, and being a strong voice for Black men and 
Black women. Coming from South Carolina, we have got voter ID, 
and I am assuming Texas is the same way. Do you all need IDs to 
buy alcohol when you are purchasing at the store?
    Ms. Thompson. Yes, to be sure that you are capable of doing 
that.
    Ms. Mace. Right. Do you need an ID in Texas to buy 
cigarettes?
    Ms. Thompson. You can't buy them unless you are at least 
21.
    Ms. Mace. But you have to show an ID to buy cigarettes.
    Ms. Thompson. You do have to show an ID.
    Ms. Mace. Do you need an ID when you are getting a job and 
trying to get on payroll in Texas?
    Ms. Thompson. Yes.
    Ms. Mace. Do you need an ID to go to the pharmacy and get a 
prescription in Texas?
    Ms. Thompson. It depends on the prescription.
    Ms. Mace. But do you need an ID for some prescriptions in 
Texas?
    Ms. Thompson. Yes, you do. Yes.
    Ms. Mace. Do you need an ID to get social security services 
in Texas?
    Ms. Thompson. You do.
    Ms. Mace. Do you need an ID to rent an apartment in Texas?
    Ms. Thompson. Yes.
    Ms. Mace. Do you need an ID for going to buy a house and 
finance it via a mortgage in Texas?
    Ms. Thompson. Yes.
    Ms. Mace. Do you need an ID in Texas if you are going to 
board an aircraft and fly commercial?
    Ms. Thompson. Yes.
    Ms. Mace. Did you fly commercial or fly a private jet on 
the way to D.C.?
    Ms. Thompson. A chartered plane.
    Ms. Mace. Do you have to show an ID when you fly in a 
private charter jet?
    Ms. Thompson. Yes.
    Ms. Mace. I wouldn't know. I have never flown on one. So, 
did you need an ID to get in the building here today?
    Ms. Thompson. Yes.
    Ms. Mace. Do you need an ID in Texas to open a bank 
account?
    Ms. Thompson. Yes.
    Ms. Mace. Yes, to cash your check if you are working. Do 
you know, Representative Thompson, what percentage of Blacks in 
Texas, Black and brown African Americans, are registered to 
vote?
    Ms. Thompson. Oh, a huge percentage.
    Ms. Mace. Seventy percent.
    Ms. Thompson. Yes.
    Ms. Mace. Do you know what percentage of African Americans, 
Black and brown Texans, voted on average or in the last 
election?
    Ms. Thompson. Like 64 percent.
    Ms. Mace. Correct. Do you know how many whites are 
registered to vote in Texas?
    Ms. Thompson. Far more than African American.
    Ms. Mace. Seventy-two percent. You have 70 percent of 
Blacks in Texas who are registered to vote. You have 72 percent 
of whites in Texas who are registered to vote. Do you know the 
percentage of whites who turned out to vote in recent 
elections?
    Ms. Thompson. I want to say over 50-some percent.
    Ms. Mace. Sixty-five percent.
    Ms. Thompson. Yes.
    Ms. Mace. Do you know what percentage of Hispanics are 
registered to vote in Texas?
    Ms. Thompson. No, I do not.
    Ms. Mace. Sixty-three percent. Do you know what percentage 
of Hispanics voted in the last election?
    Ms. Thompson. I think it was over 40 percent.
    Ms. Mace. Fifty-three percent. Hispanics are not voting in 
as high numbers as Blacks and whites in Texas. Do you know the 
percentage of Democrats who support voter ID?
    Ms. Thompson. Would you repeat your question?
    Ms. Mace. Do you know the number or percentage of Democrats 
who support voter ID in this country?
    Ms. Thompson. I do not, but I don't think it is a whole 
lot.
    Ms. Mace. Seventy-two percent. Do you know the number of 
Black and brown and African Americans in this country who 
support voter ID?
    Ms. Thompson. No.
    Ms. Mace. Seventy-five percent. Do you know the number of 
Hispanics that support voter ID in this country?
    Ms. Thompson. No.
    Ms. Mace. Eighty-one percent. Do you know where the state 
of Texas is ranked with Black voter turnout in this country?
    Ms. Thompson. With Black voter turnout?
    Ms. Mace. Mm-hmm. Do you know where Texas is ranked?
    Ms. Thompson. Oh, about 44 percent.
    Ms. Mace. The latest numbers that I read this morning was 
that Texas is ranked 10th. So, in the top 10 in the country. Do 
you know where Texas is ranked with women voters?
    Ms. Thompson. Oh, way up in the 50's.
    Ms. Mace. In the bottom third of this country. So, I would 
argue that Texas has a more difficult problem with getting 
women out to vote than Black and brown and African Americans. 
Thank you, and I yield back.
    Mr. Raskin. Thank you very much. I would like to go to 
Congresswoman Robin Kelly for her five minutes of questioning. 
You are recognized.
    Ms. Kelly. Thank you, Mr. Chair. It is critical that we 
recognize that these voter suppression measures are not simply 
attempts to act on former Presidents Trump's big lie. For 
years, Texas Republicans have tried desperately to blunt the 
impact of demographic trends that threaten their stranglehold 
on power. According to the U.S. Census Bureau, Texas is a very 
diverse state. Nearly early 40 percent of its population is 
Hispanic or Latino, and almost 13 percent is Black or African 
American, as you see in the slide.
    [Slide.]
    Ms. Kelly. Starting in 2018, we saw racially diverse 
populations in major cities drift away from the Republican 
Party. In 2020, non-white voters cast their ballots at a rate 
of nine percent higher than they had in 2016, enabling 
President Biden to perform better in the state than any other 
Democrat in decades. This performance was fueled by those large 
cities like Houston, which saw with its highest turnout in 
nearly 30 years, due in large part to efforts to expand ballot 
access. Ms. Perales, you fight for voting rights for Latino 
communities. How do you think these demographic shifts in the 
Texas electorate have influenced these restrictive voting 
measures?
    Ms. Perales. In our view, there is a direct connection 
between the diversification of the Texas electorate and these 
moves to restrict or tighten Texas election law. And the one 
example I will give you is that from 2014 to 2018, Latino voter 
turnout increased to such a degree, that Latinos cast almost 1 
million more votes statewide in Texas in 2018 when compared to 
2014. Those types of shifts in the electorate are very 
challenging for those in power who think that Latinos will not 
support them.
    Ms. Kelly. And have you seen the same efforts in other 
parts of the country that would necessitate the need for 
Federal legislation?
    Ms. Perales. Yes, there is a nationwide trend to tighten 
election laws in response to increasing racial diversity in the 
electorate in more than just Texas.
    Ms. Kelly. Thank you. Rep. Bernal, what do you make of the 
argument that these restrictions have less to do with voter 
fraud and more to do with shifting political tides?
    Mr. Bernal. I think the policy itself bears that out. I 
think it is hard to argue that you are trying to combat voter 
fraud when it is more likely that you get struck by lightning 
or a meteor--we did the math--than there being voter fraud in 
Texas. It just doesn't exist. I think that the zeitgeist, the 
national fear that has been created by the Big Lie, fuels that. 
But you would have a hard time drawing a direct line from any 
part of this bill, any policy to a case or instance, of voter 
fraud in the last 17 years, if not the last several decades.
    Ms. Kelly. Thank you. Rep. Thompson, Rep. Collier, you also 
represent rapidly growing cities. According to the Census, 
Houston--which is going to overtake Chicago if we are not 
careful--and Dallas metro areas had the largest population 
gains of any metro region between 2010 and 2020. Rep. Collier, 
have you seen voter suppression efforts in Austin intensify in 
response to this population growth?
    Ms. Collier. Thank you for the question. In fact, too often 
we look for overt and obvious signs of suppression, but 
suppression can be emulated in long lines. It could be creating 
harsher penalties for making simple mistakes. So, it may not 
look like the poll tax and the literacy test of old time, but 
suppression can rear its ugly head in various subtle forms. And 
so going back to the question about if we have ballots that 
have multiple languages on them, the only reason we have that 
is because of the protections of the Voting Rights Act of 1965. 
In 1975, the state of Texas was required to provide multiple 
languages in the ballot only because we had the protections 
under that Voting Rights Act, which only elevates and shows the 
need for having this type of provision again. So, Texas was 
made to do these multiple languages. It wasn't done on its own. 
And so, unless we have Federal intervention, we will continue 
to see the chipping away of our rights.
    Ms. Kelly. You know, my colleague took the time to go 
through step by step what you need voter identification for, 
and there were a lot of things, but it is not just about voter 
identification. It is voter identification mixed in with 
everything else that you have to do. And I don't know if one of 
the reps or, Ms. Perales, if you want to respond to that.
    Mr. Raskin. And your time is up, but let's let Ms. Perales 
respond. That is great.
    Ms. Perales. I would just like to make two quick points. 
One, voting is a fundamental right. Voting is not the same as 
going to the store and buying a bottle of liquor, and it should 
never be equated that way. That is demeaning to the right to 
vote. Second of all, Texas had a voter ID law, and, 
unfortunately, surgically made it tighter and more restrictive 
in a way that a Federal court found was discriminatory against 
minority voters. So, an ID can be certainly much more expansive 
than what was provided in Texas when it was found to be 
discriminatory. And you should know that because of that 
Federal court ruling now, Texas had to broaden the opportunity 
for voters to vote.
    Ms. Kelly. Thank you so much.
    Mr. Raskin. I thank the representative. Before I recognize 
Mr. Franklin for his five minutes of questioning, one, I want 
to recognize the presence of a Congresswoman Sheila Jackson Lee 
from Houston, who has been with us observing the hearing. And I 
also want to thank Congressman Veasey, who has cleared up this 
urgent matter about COLAs for retired teachers in Texas. It 
looks like both sides were right. TRS retirees have not 
received a permanent annuity increase since 2013, and the COLA 
applied only to retirees who retired on or before August 31, 
2004. Anyone who has retired after this has never received a 
COLA. I have got more details about that, but I think everybody 
was acting in good faith. And I now recognize Mr. Franklin for 
his five minutes of questioning.
    Mr. Franklin. Thank you, Mr. Chairman. When there are so 
many topics and issues we could be digging into here as 
Congress' Committee on Oversight and Reform, we are once again 
squandering the opportunity on something that is not germane to 
this body, but I am not surprised. After all, it was here on 
this committee that I learned the person I had always 
considered my mother isn't a mother at all. She is just a 
birthing person. On multiple occasions when I thought we might 
actually conduct oversight and discuss reform with respect to 
the breakdown surrounding the events of January 6, my Democrat 
colleagues refused to require leadership of the Capitol Police 
to testify, so I am not surprised.
    But I am truly puzzled why you all, our witnesses, have 
chosen to be here. Instead of being back home in your state of 
Texas and doing the work you were elected to do, you cut and 
ran to D.C. and you brought COVID with you, and you infected 
people while you were here at the Capitol, and while you are 
at----
    Mr. Mfume. Mr. Chairman, I object. Personal attacks.
    Mr. Sessions. Mr. Chairman, the gentleman has spoken the 
facts of the case, and the gentleman is speaking off publicly 
available information.
    Mr. Raskin. All right. I appreciate that, Mr. Sessions. You 
know what? In the spirit of Chairman Cummings, here is what we 
are going to do. We are going to allow the gentleman to 
continue with whatever he wants to say, whether it is true or 
false or something else, and then there will be many 
opportunities for people to respond.
    Mr. Sessions. Mr. Chairman, we are under an obligation to 
tell the truth in this committee, and the gentleman is, in 
fact, responding to what would be publicly available 
information. And we did not interfere with your witnesses, of 
course.
    Mr. Raskin. No one is interfering. That is my whole point. 
He can continue with whatever it is he wants to say. He has got 
rights under the First Amendment and the Speech and Debate 
clause. So, please proceed, Mr. Franklin.
    Mr. Franklin. Thank you, Mr. Chairman. Maybe this hearing 
is just an opportunity to give you all something to do while 
you should be back in Texas. As a freshman Republican serving 
in the minority here in Congress, I have been on my share of a 
lot of losing votes. I don't enjoy it at all. I think the 
Democratic Party, as the majority, has jammed through a lot of 
policies that are terrible for our country, but here is the 
deal: we cast our votes and we move ahead. And sure, on the 
Republican side, we will message about how we think it is 
wrong, and then when those bad policies bear rotten fruit, like 
skyrocketing inflation, crippling national debt, a humanitarian 
crisis on our border, or spikes in violent crime, we can say 
``we told you so.'' But we still suck it up, do our job, and 
take the votes, and we bide our time until we retake the 
majority. We don't act like a bunch of spoiled coward running 
away and refusing to vote when it is clear we don't have the 
numbers to get our way.
    Ms. Thompson, in your testimony, which we just received 
about an hour before the hearing this morning, you stated that 
you support H.R. 1, which the House of Representatives passed 
earlier this year on straight party lines, no amendments, no 
opportunities for Republicans to offer amendments to that, 
straight party lines. H.R. 1 would essentially strip away 
authority the Constitution grants the state legislators by 
Federalizing elections. In your oath of office for the Texas 
legislature, you swore, among other things, to preserve, 
protect, and defend the Constitution and laws of the United 
States. The framers of our Constitution wanted the authority 
for determining the manner of elections to rest with the state 
legislatures, not Congress, not appointed officials, not other 
elected officials. Specifically and only the state legislators. 
I can't fathom why you would want to cede power granted to your 
state back to the Federal Government.
    And I hope the good people of Texas are watching this and 
really understand what our witnesses are trying to do. They 
think the Federal Government knows better than you Texans how 
you should conduct your elections. The media and your liberal 
buddies try their darndest to paint you as heroes, but you are 
not. The truth is when, you know, when you sought office in the 
state legislature, you persuaded people in your districts that 
you are the ones who should represent their interests in the 
arena. You signed up for it and Texans put their trust in you, 
and now you are failing them. Instead of being here, you should 
be getting on a plane at Reagan National and flying back to 
Texas in coach like the rest of us. And unlike the private jet 
you used to get here, they are going to make you wear a mask.
    I don't have any questions, Mr. Chairman, but with the 
balance my time, I would like to yield it to my colleague, Mr. 
Fallon.
    Mr. Fallon. Thank you, Representative Franklin. You know, 
we are hearing so many things today that are either not true or 
the assertions are accompanied with absolutely no proof 
whatsoever. The chairman, not the subcommittee, but the 
chairman of the whole committee said that Texas is the hardest 
state in the union to vote. All right. Let's look at 2016 to 
2020. Texas improved our turnout 8.8 percent. That was the 9th 
best out of 50 states in the country, so you can say whatever 
you want. It doesn't make it true, and certainly that assertion 
wasn't true.
    The historical struggle for our African American brothers 
and sisters to vote is real. That happened, and it is horrific. 
It is the largest and most horrible stain on our great country. 
We need free, honest, and open elections, and I get physically 
ill hearing the stories that Representative Thompson shared 
with us. Those are awful, but let's address the matter at hand 
today, which is the bill that you all broke quorum not to vote 
for. I hear a lot of things that you could offer amendments to 
make it better. That is the amendment process is all about. 
This bill isn't voter suppression. This bill is voter 
integrity. Mr. Chairman, I yield back.
    Mr. Mfume. Mr. Chairman, I have a point of parliamentary 
inquiry.
    Mr. Raskin. I am sorry. Where is that coming from?
    Mr. Mfume. Right here.
    Mr. Raskin. Oh yes, yes. Mr. Mfume, please.
    Mr. Mfume. Mr. Chairman, I would ask, do the rules that 
govern the committee permit Democrats or Republicans to defame 
witnesses by calling them coward and being unable to 
substantiate that? It just seems to me that that is outside of 
the realm of free and open discussion, and it is an act of 
defamation.
    Mr. Raskin. Yes, it is the spirit, the tradition, and, I 
believe, the rules of this committee to treat all witnesses 
with civility and respect, and as chair, I will not tolerate 
intimidation or abuse of witnesses. So, everyone, please take 
note, and I thank you, Mr. Mfume, for that clarification.
    I am going to recognize myself for my five minutes of 
questions, and the first thing I want to do is I want to 
contrast what you have done with what the violent 
insurrectionists did to us on January 6. They had a complaint 
about voting, too. They came here to ``stop the steal'' is what 
they said. They had been goaded by Donald Trump to come and to 
try to put pressure, coercive pressure, on Vice President Mike 
Pence to reject electoral college votes from Arizona, Georgia, 
and Pennsylvania, to proclaim a power no Vice President had 
ever exercised before and doesn't exist in the Constitution, 
and Pence, to his great credit, refused to do it. And you know 
what? They trashed the place, and they injured and wounded 140 
police officers.
    Now we have representatives from a major political party in 
Texas representing African Americans, Mexican Americans, white 
people, Native Americans, who are coming forward to say that 
their voting rights are being subjected to a gauntlet, an 
obstacle course, that was so precisely elucidated by 
Representative Bernal. They are saying this is just another 
dressed up form of voter suppression, of disenfranchisement. I 
was delighted to hear my friend, Mr. Fallon, say that it pained 
him to hear about the history of disenfranchisement and voter 
suppression that affected African Americans, but at some point, 
apparently it all ended, and what you guys are here to complain 
about, what you have come all the way to Washington to talk 
about, is apparently just a figment of your imagination. So, we 
can't trust the African American community or the Hispanic 
community, or Native American community, or the voting rights 
lawyers about this. We are supposed to, instead, trust one 
political party. And I am sorry, I don't just trust one 
political party, whether it is my party or somebody else's 
political party, because what they want to do is win elections.
    Now, Representative Bernal, we have heard some attack one-
size-fits-all elections. The claim is that by getting the 
Federal Government involved, as the Civil Rights Movement did 
with the Voting Rights Act, but by getting the Federal 
Government involved, it is a cookie cutter, one-size-fits-all 
approach. But when I look at this bill, it looks to me like 
that is what that bill is because there are all kinds of things 
that are working at the county level in Texas that are going to 
be extinguished by this legislation. Isn't this really an 
attempt to impose a one-size-fits-all straitjacket on the 
counties and the municipalities in Texas?
    Mr. Bernal. It is. It would force counties that are small--
5,000 people, 6,000 people--to operate in the same way as 
counties of millions of people and to abide by the same. There 
is nothing wrong with the same rules. In fact, that is what 
Federal laws are for. They are the ground floor. Otherwise, 
there is no reason to have them at all.
    Mr. Raskin. Well, I am for uniform rules that help people 
get the right to vote. I am against uniform rules that try to 
crush the right to vote.
    Mr. Bernal. Well, there should be baseline protections. 
There should be a ground floor that holds the standards. But 
otherwise, the idea that you would force, for example, Harris 
County or Bexar County, where I am from, to operate in exactly 
the same way as a smaller county. Sure, there should be rules 
they all abide by, but that doesn't mean that they can't do 
things within the law that benefit voters.
    Mr. Raskin. Well, Representative Collier, for example, you 
talked, I think, about the 24-hour voting. There are some 
people who are out there working double shifts. They are 
working the day shift and the night shift. The only time they 
can vote is it at two or three in the morning. If that is a 
decision of Harris County, why should the state dismantle that?
    Ms. Collier. Because it is not good for their narrative. 
Let me just tell you this. In Texas, in the 2020 general 
elections, we had the largest turnout of voters since 1992, and 
in response, we get restrictive legislation that would limit 
the access to the ballot box. We saw that what they did in 
Harris County worked: drive-through voting. Just like you get 
the COVID shot, if you get the COVID, I am vaccinated. We are 
all vaccinated here from Texas, Democratic legislature, and if 
you get the vaccine, you can get it drive-through. And that is 
all that they were offering in Harris County to address the 
pandemic.
    But under the bill, they would allow untrained partisan 
poll watchers to observe, close enough in violation of any type 
of CDC guidelines. And the Governor has prohibited local 
officials from requiring masks, so that means that the Delta 
variant that is going around would spread even easier under the 
election, you know, coming up if we don't have precautions in 
place.
    Mr. Raskin. Thank you. Ms. Perales, Representative Bernal 
and Representative Thompson talked us through this remarkable 
obstacle course that would be imposed under the Texas 
legislation, making it extremely difficult for people to 
navigate all the twists and turns of the current law without 
subjecting themselves to criminal liability or prosecution. Am 
I reading this correctly? It looks to me like it is a 
permission structure being put into place for bureaucratic 
extremism in areas where you have got official authorities that 
are resistant to people's right to vote, but then also 
empowering partisan actors to overcome officials when the 
officials are trying to protect people's right to vote. Ms. 
Perales?
    Ms. Perales. Representative?
    Mr. Raskin. Yes.
    Ms. Perales. That is exactly right. It is coming at voters, 
and, in this case, their assistors from both directions. They 
are coming at poll workers from both directions, which is to 
threaten with felonies and a year of jail time any poll worker 
who tries to protect a voter, and at the same time, change 
Texas election law so that, instead of being able to stay in 
one place and observe, which is what poll watchers can do now, 
allow them to roam freely and get close to voters to observe 
their activities.
    Mr. Raskin. It is just astounding to see this 
criminalization of the work of the election judges. Finally, 
Representative Thompson, it was just said by Mr. Franklin that 
you cut and ran, and I think the word ``coward'' was invoked. 
Are you guys demonstrating a lack of courage by coming to 
Washington to demand Federal legislation to protect the right 
of people to vote?
    Mr. Sessions. Mr. Chairman?
    Mr. Raskin. Yes?
    Mr. Sessions. You are holding our side accountable to the 
five-minute rule.
    Mr. Raskin. I have given everybody on both sides some 
discretion, so I am going to finish with this question, and if 
you want an extra question, by all means, Mr. Sessions. So, I 
just wanted to ask you this question. Did you guys cut and run?
    Ms. Thompson. No, we took the same responsibility to 
represent our constituents by leaving. And even though Mr. 
Franklin may call himself a coward, you know, he don't have a 
right to classify me as one.
    Mr. Raskin. OK. I am going to go now to, let's see, 
Representative Cloud is next. Mr. Donalds, you are called on 
next, and you do understand that the rule that we have to be 
wearing masks in committee when we are not speaking, according 
to the Capitol physician? You are recognized for five minutes 
of questioning.
    Mr. Donalds. I will save the debate on the rule for another 
day. Thank you, Mr. Chairman. Witnesses, thanks for coming. I 
really appreciate it. Representative Thompson, you have been on 
the Texas legislature for, you know, a considerable amount of 
time, and I thank you for your service. I understand what it is 
to serve in a state legislature. I served in Florida's for the 
last four years before I came to Congress. You mentioned in 
your opening statement about how when you were at a polling 
location, you felt intimidation. I believe it was from a Proud 
Boy member, whoever it was. Did you file a complaint with the 
election official, I am assuming in Texas, the election judge 
that is in every polling location?
    Ms. Thompson. It is nice to meet you. The person came 
behind me, and I turned and asked what they wanted. And I am 
known in my district, and I am known in that particular 
precinct, and speaking with that person for a little bit, I 
didn't have no trouble out of her. But most people would not 
have stood their ground, and they would have----
    Mr. Donalds. I am sorry. We are limited in time. I would 
love to engage more, but my question is, understanding, you 
know, your role as an elected leader in Texas, knowing the 
situation you encountered as an election leader, did you take 
it upon yourself to file a complaint with the election judge?
    Ms. Thompson. I did not, and that person, I think, shortly 
left after we finished talking.
    Mr. Donalds. OK. My secondary question is, is there 
anything in the Texas law, which I have in front of me. I have 
been reading it during this this committee hearing. Is there 
anything in this law that would stop anybody from being able to 
file a complaint if they felt some form of intimidation from a 
poll watcher?
    Ms. Thompson. Congressman, you are Black like me. How many 
Black people you know is going to be intimidated to go and file 
against some white person in the South?
    Mr. Donalds. I mean, I am just talking about you. I am not 
going to be intimidated either. I am asking a question.
    Ms. Thompson. And I am just talking about you, too.
    Mr. Donalds. No, what I am saying is----
    Ms. Thompson. I am responding to your questions.
    Mr. Donalds. Is there anything in the law that prohibits 
somebody from filing a complaint? We are talking about the law 
now. That is what we are talking about.
    Ms. Thompson. There is nothing prohibiting them from it, 
but, you know, the mere fact of somebody of another ethnicity 
looking like the Proud Boys in their particular precinct is 
intimidating enough. Who is going to think about filing a 
complaint? Some people may, but most people my age are not 
going to be doing that. They are going to be intimidated, and 
they are going to tell their friends, and their friends are not 
going to want to go back. And that intimidation, by any means 
that you want to announce it, is still intimidation, and that 
is a suppression of the vote.
    Mr. Donalds. I would like to make one point before we move 
on, and it is that, it is not just a member of the Proud Boys 
or anybody else who might be a poll watcher. And by the way, I 
don't even know who those people are.
    Ms. Thompson. Well, most of them who will come to my area 
are white.
    Mr. Donalds. Hold on. This is my time, so let me explain. 
I'm getting to my point.
    Ms. Thompson. OK.
    Mr. Donalds. What I am saying is there is nothing in this 
law that prevents any voter in the state of Texas from filing a 
complaint which would actually take away or diminish their 
voting rights. That is the fact of the law because I am sitting 
here reading it. And even in your answer, you didn't tell me 
that it is actually not clear in this bill that people are 
allowed to actually file a complaint. But I got to move on 
because, you know, we are almost out of time.
    Representative Collier, I was listening to your comments 
about the absentee ballot situation where people have to put in 
either the last four of their driver's license, last four of 
their social security number, or some form of identification, 
or actually attesting to an oath that they don't have that 
available to them. Your statement said that, basically, their 
ballot will be kicked out if the number they put on the ballot 
did not match what is actually at the supervisor of elections. 
But in reading the bill, that is not clear, so can you further 
expound? Is this actually in the law that would allow a ballot 
to be kicked out of the process, or to be clear, is this a 
technical change that you or any one of your colleagues could 
file an amendment to make that technical change?
    Ms. Collier. I am sorry. What section do you say it is not 
there?
    Mr. Donalds. Hold on. I have been thumbing through so many 
sections of this bill. Give me one moment. Mr. Chair, that is 
not fair. I am having to dig through a bill during my time. We 
got dead air.
    Mr. Raskin. We will be kind to you.
    Mr. Donalds. All right. Thank you, Mr. Chairman. I 
appreciate that.
    Voice. I think it is page 12.
    Mr. Donalds. Page 12? All right. Hold on a second. No, that 
is poll watchers. No, it is not that way. It is this way. I 
should have dog-eared this thing. My apologies, Mr. Chairman. 
OK. Page 17. This is Article 5, Section 5.02, starting with 
Section (a), Subsection 1, line 26, starting on page 16, from 
my pages, what I am reading on.
    Ms. Collier. Are you on House Bill 3 or Senate Bill----
    Mr. Donalds. I am on House Bill Number 3, ma'am.
    Ms. Collier. OK.
    Mr. Donalds. And so, reading this bill, I am looking at 
this, and there is nothing in this language that would kick 
your ballot out. So, please explain, you know, your rationale 
to the committee on this.
    Ms. Collier. OK. It says, ``An early voting ballot,'' on 
page 16, ``must include,'' and it these requirements on page 
17. If it does not include, then it has not met the standard in 
the requirements under the law.
    Mr. Donalds. But for clarification purposes, what is in 
here is that you either have to have the last four of your 
driver's license, the last four of your social security number, 
or you can actually make a statement that you have not been 
issued a number of anything in the first two sections. And if 
you do one of those three, your ballot is actually allowed to 
count under H.B. 3.
    Ms. Collier. Absolutely. So, the concern, and we are not 
even raising the issue of strict voter ID in Texas because that 
has already been determined by the court. That has been 
resolved. The concern with this one is if I registered to vote 
20 years ago, I was required to put down one of those 
identifications. I either put down my social security number or 
my driver's license number. All right. On this particular 
measure, it is saying that the person must put down the number 
that corresponds with the one that is on file with the Election 
Administration. Say, for instance, I put down my----
    Mr. Donalds. Representative Collier. Representative 
Collier, I am sorry to cut you off because this is actually 
important information, but I know I am out of time. I am over 
time.
    Mr. Raskin. No, this is an important discussion. So, you 
are saying that if you put down your social security number, 
but you did it 15 or 20 years ago and you put your driver's 
license number down, they will throw out your ballot without 
even telling you that you chose the wrong number? Is that 
right?
    Ms. Collier. That is what this bill does because it is not 
clear that there is any cure opportunity. There is a cure 
opportunity for other provisions in the bill, but not for this 
particular provision.
    Mr. Donalds. The only thing I----
    Ms. Collier. There is no way to cure even though I put down 
the correct number, my driver's license number is correct, my 
social security number is correct, or whatever one. If it is 
not the same exact number that is on file, my ballot does not 
meet the standards in the requirements through this bill.
    Mr. Sessions. Mr. Chairman?
    Ms. Collier. My ballot. Sorry.
    Mr. Raskin. I am sorry, the time is Mr. Donald's, and I am 
going to be generous. So, take another moment if you would.
    Mr. Donalds. I am going to close real quick.
    Mr. Raskin. OK.
    Mr. Donalds. The only thing I would say, Representative 
Collier, with all due respect, is, you know, I am sitting up 
here. I am reading your bill. I have read election bills in 
Florida where we made election changes, not the one that the 
legislature did since I have been in Congress, but we did two 
other election changes. I have read those bills. I am reading 
the statutory language here, and what is here in the language 
does not comport with what you are saying. My only advice would 
be if you have a technical issue, then the job of you and your 
colleagues is in the Texas legislature, not here, to make sure 
that those technical changes can be made or work with the 
majority party. And the last thing I will say is that I think 
that in the Texas legislature, like in most state legislatures, 
you guys have far more latitude to bring technical changes and 
amendments. I know up here in D.C. being in the minority party, 
we hardly have any ability to bring amendments on anything. 
With that, I yield back.
    Ms. Collier. Sir, if it was only a technical amendment. 
This is a practical implication that is going to disenfranchise 
hundreds and thousands of votes of Texans, and so that is why 
we are here. We tried to work with our counterparts, but every 
amendment that we presented was declined.
    Mr. Raskin. Where was that, in committee?
    Ms. Collier. Yes, sir, in committee. On the 23 hours, there 
were amendments that were presented. Even during the regular 
session when we presented amendments, they were not always 
admitted, so we have tried. We have used every tool in our 
toolbox to collaborate with our colleagues. The only thing left 
is to come to Congress and ask for Federal intervention. The 
answer is here.
    Mr. Raskin. Thank you. Thank you very much, Representative 
Collier, and I have got to come to my friend, Ayanna Pressley, 
from Massachusetts, to recognize her for her five minutes of 
questioning.
    Ms. Pressley. Thank you, Chairman Raskin. In today's 
hearing, I am reminded of the words of my mother, may she rest 
in peace and power, Sandy Pressley. She was a super voter and 
never missed an Election Day, and she reminded me every time 
that I would go with her, and she would pull that curtain and 
then pull that lever, she would turn to me and say, ``Never 
forget that on this day, on Election Day, we are powerful,'' 
and I would stand up just a little bit taller. I believed her 
then, and I still do now.
    Republicans in the Texas state legislature are trying to 
take away that power. The voter suppression tactics they 
support are targeted and precise with the aim of stripping 
power away from Black folks, Hispanic, and Latinx, and voters 
with disabilities. This is the latest chapter in a long history 
of systemic racist and ableist disenfranchisement. By creating 
new and broad criminal penalties, Texas Republicans have 
adopted a strategy of blatant intimidation to suppress the 
vote. Ms. Perales, ``yes'' or ``no'' for the record, do you 
believe expanding criminal penalties in this bill will deter 
people from voting?
    Ms. Perales. Yes.
    Ms. Pressley. Thank you. So, we agree. Some of the new 
criminal penalties are directed at family members and 
volunteers who help voters complete and return their ballots. 
People with disabilities are more likely to need this type of 
ethical and well-established accommodation to vote. Rep. 
Bernal, how does this bill's new requirements for voting by 
mail or in-person voting impede voters with disabilities from 
exercising their right to vote?
    Mr. Bernal. That is an interesting question. One of the 
most interesting answers is that it requires a pen ink 
signature, something that many people with disabilities cannot 
produce and they often use a stamp, and so there is no cure for 
that.
    Ms. Pressley. Thank you. And finally, I want to shed light 
on provisions I found particularly alarming, given Texas's 
history of voter intimidation. If a voter requires assistance 
from a friend or a relative, this bill would allow an uninvited 
and self-appointed poll watcher, like a member of Republicans' 
2020 ``election integrity brigade,'' an intimidation group, to 
watch over them while they cast their ballot. This means voters 
with disabilities will be subject to greater scrutiny, 
intimidation, and discriminatory treatment. Ms. Perales, do you 
agree that this bill enables individuals to harass, intimidate, 
or obstruct voters under the guise of poll watching?
    Ms. Perales. Yes, it certainly does.
    Ms. Pressley. Thank you. Well, I am convinced more than 
ever that my colleagues in the Senate must stop forcing people 
with disabilities and people of color to carry the burden of 
finding ways to organize against these shameful, suppressive, 
and anti-democratic state bills. Instead, senators, especially 
those in my own party, need to remove these obstacles by 
abolishing the filibuster and passing the For the People Act 
and the John Lewis Voting Rights Act. This is an intersectional 
fight about disability justice, racial justice, and electoral 
justice, and we must win because the future of our democracy 
demands it. Thank you, and I yield back.
    Mr. Sessions. Mr. Chairman?
    Mr. Raskin. Thank you, Ms. Pressley. I would now recognize 
Mr. Fallon. Is that----
    Mr. Sessions. Mr. Chairman?
    Mr. Raskin. Yes?
    Mr. Sessions. I believe it is important that we not 
continue speaking about things that are not truthful. In fact, 
the gentlewoman made the assertion that one could simply walk 
in and be a poll watcher. That is not true. The truth of the 
matter is that you must go through a certification process by 
your local party to be able to be there.
    Mr. Raskin. OK. Mr. Sessions----
    Mr. Sessions. You just cannot walk off the street.
    Mr. Raskin. See, here is the problem. We keep raising as 
kind of a procedural objection what is really a substantive 
disagreement.
    Mr. Sessions. Yes, sir.
    Mr. Raskin. I'm going to make sure----
    Mr. Sessions. But I believe if we are going to give 
testimony, if we are going to make assertions----
    Mr. Raskin. Well, she was using her time, but you will have 
an opportunity to close. Please just take notes on the things 
that you disagree with profoundly because, you know, we have 
been keeping a number of members waiting, and I do want to go 
to Mr. Fallon.
    Mr. Sessions. Yes, sir, we did. Thank you.
    Mr. Raskin. Yes. So, Mr. Fallon, you are recognized for 
your five minutes of questioning.
    Mr. Fallon. Thank you, Mr. Chairman. Very gracious of you. 
You know, we are hearing a lot of twists, and spins, and 
propaganda, and statements that are simply not true. So many, 
in fact, my five minutes would be exhausted trying to address 
even just a fraction of them. We live today in a headline 
culture. So, many people just read the headline and they don't 
read the article. So, they hear a statement and they think, oh, 
this is a learned person, it must be true. In fact, what is the 
title of this very hearing? It is ``Democracy in Danger.'' That 
gets your attention, and it goes further and says, ``The 
Assault on Voting Rights in Texas.'' The assault, as if a crime 
is being committed.
    And in the second paragraph of the memorandum that we were 
given about the hearing, it says, ``This Texas legislation 
would dramatically restrict access for voters across the 
state,'' and it goes on specifically to mention the proposal 
about banning drive-through voting and 24-hour voting. 
Dramatically restrict. Let's think about that. It fails to 
mention that of the 254 counties in Texas, 253 of them had no, 
none, zero drive-through or 24-hour voting in all of Texas, and 
99 percent of us Texans did not utilize drive-through voting or 
the 24-hour voting. And that is not to say that the folks that 
did go use the 24-hour voting after 7 p.m. and before 7 a.m., 
it is not to say they wouldn't have voted. They could have just 
like we all did. I am disheartened that 50 of my former 
Democratic colleagues abandoned our home state and came here to 
Washington, DC. It is unfortunate that some are, not the three 
here today, but more like carnival barkers than serious 
deliberative legislators. The phony arguments and baseless 
claims are hyperbolic in the extreme, completely disingenuous, 
and patently untrue.
    In the aforementioned memorandum issued by the majority 
about this hearing, in that same second paragraph, it says that 
``Texas has a long history of attempting to suppress black and 
Latino voters and has been judged the hardest state in which 
cast a ballot,'' which we already addressed, but that is 
inflammatory and it is accusatory. And where do they cite? So, 
they cite The Guardian newspaper. Not an American newspaper. A 
far-left newspaper in Great Britain. And instead of citing 
foreigners on other continents for their opinions on Texas 
voting, why don't we see what Texans themselves think?
    There was a poll done last week by RMG Research, and in 
Texas they asked Texans, is it easy to vote in Texas, is it 
hard, or is it about right. Seventy-five percent said it is 
easier, it is about right. Only 16 percent said it was hard. If 
you break it down demographically, it was 79 percent to 14 
amongst whites, 64 to 21 amongst African Americans, and 75 to 
20 with Hispanics. So, the results are in, and it is a 
landslide that the vast majority of Texans believe it is just 
about right or easy to vote.
    I would like to ask my three former colleagues very 
quickly, and it is because of time, just ``yes'' or ``no.'' Do 
you support or oppose voter ID? Ms. Thompson? Representative 
Thompson?
    Ms. Thompson. You know my vote was ``no.''
    Mr. Fallon. You voted ``no'' in 2011. You all weren't able 
to vote because we weren't in the legislature in 2011. 
Representative Collier?
    Ms. Collier. I support expanding voter ID to include 
student IDs that are issued by state schools, yes.
    Mr. Fallon. So, you support voter ID. You would have voted 
``yes'' 2011 if you were in the legislature?
    Ms. Collier. I don't know that bill, so I couldn't tell 
you.
    Mr. Fallon. OK. Representative Bernal?
    Mr. Bernal. Like she does, I think expanded voter ID works.
    Mr. Fallon. OK. So, you support voter ID.
    Mr. Bernal. I support the concept of voter ID, not Texas' 
version of voter ID.
    Mr. Fallon. Well, I remember in 2011, I wasn't in the 
legislature at the time, but Democrats voted en masse against 
the voter ID bill at the time, and that is completely out of 
step with Texans because Texans overwhelmingly support voter ID 
that we have on the books, 82 percent to 11. Again, breaking it 
down demographically, it is overwhelming: 84, 75, and 81 
percent, respectively support voter ID. Representative 
Thompson, do you believe the current legislation being proposed 
in Texas has an adverse effect on turnout in Texas? Do you 
think turnout is going to go down?
    Ms. Thompson. I do.
    Mr. Fallon. OK. Again, in voter ID in 2011, there were the 
same concerns, and that is what I remember hearing, but they 
were all ill placed or, at worse, fabricated because from 2008, 
the last time we had an election, Presidential election in 
Texas that didn't have voter ID, to 2020 in the last one where 
we had it, turnout out went up 39.25 percent. And our 
population did rise 19.7 percent, but it was still outpaced 2 
to 1, and it is the same doom and gloom that we are hearing now 
about this is going to affect voter turnout. So, it is fair to 
say that the Democrats in our state were wrong then, and I 
would argue that they are wrong now.
    Mr. Chair, I am going to have to yield back because I am 
out of time.
    Mr. Raskin. All right. Well, thank you for your 
reflections, and we go now to the chair of the full committee, 
Chairman Maloney, for her questioning.
    Mrs. Maloney. Thank you. Thank you, Mr. Chairman. This 
hearing is not the first time that the Oversight Committee has 
investigated voter suppression efforts in Texas. In March 2019, 
my predecessor, Chairman Elijah Cummings, along with Chairman 
Raskin, launched an investigation into the state's failed 
attempt to purge nearly 100,000 voters from the Texas voter 
rolls. Texas threatened more than half of these voters with 
criminal prosecution, but it turned out that many of them were 
eligible voters. This purge effort was halted by a Federal 
judge because the judge found, and I quote, ``Perfectly legal 
naturalized Americans were burdened with what the Court finds 
to be ham-handed and threatening correspondence from the 
state.'' Mrs. Perales, your organization helped stop this 
blatant attempt at voter suppression in Texas. How did the 
attempted voter roll purge contribute to voter suppression in 
Texas?
    Ms. Perales. We did file suit on behalf of naturalized U.S. 
voters who had received letters from their counties accusing 
them of being non-U.S. citizens and telling them that they had 
to prove up their U.S. citizenship, even though they were U.S. 
citizens. I had one client tell me that she never wanted to 
vote again. She was newly naturalized. She has proudly become a 
U.S. citizen and proudly registered to vote, and she was so 
afraid and so intimidated by that letter thinking she had made 
some awful mistake, that she said she never wanted to vote 
again, and that was repeated around the state.
    Mrs. Maloney. Well, which communities, Ms. Perales, would 
have been most impacted by this action in your state?
    Ms. Perales. That Texas voter purge of 2019 was surgically 
designed to kick Asian American and Latino newly naturalized 
registered voters off the voter rolls because of the way they 
put that list together, which had to do with people who 
formerly held green cards and were registered to vote. Today, 
that is disproportionately Latino and Asian Americans in Texas.
    Mrs. Maloney. Well, last year, Chairman Raskin and I 
released findings from this investigation, and the committee 
found new evidence that many U.S. citizens had been incorrectly 
told they were ineligible to vote, and that county officials in 
Texas raised serious concerns about the purge. And, 
Representative Thompson, you have been outspoken about the 
history of voter suppression efforts in Texas. Ms. Thompson, 
how did these attempts to purge vote rolls play into the 
greater context of voter suppression in Texas?
    Ms. Thompson. It had a chilling effect on persons who may 
have wanted to vote because of what was happening.
    Mrs. Maloney. Well, the Federal judge who halted the effort 
said, and I quote, Mrs. Thompson, ``The evidence has shown that 
in a hearing before this Court that there is no widespread 
voter fraud.'' Yet today, we are seeing the same falsehoods 
about voter fraud being pushed to support new voter suppression 
bills in Texas. Mrs. Perales, has there been any evidence of 
widespread voting by non-citizens in the Texas 2020 election?
    Ms. Perales. Not in 2020 or at any other time.
    Mrs. Maloney. So, the current Senate version of the Texas 
voter bill would require a monthly review of voter rolls for 
non-citizens. Mrs. Perales, how would a provision like this 
affect people? How would this threaten voting rights? You 
mentioned one of the people you talked to felt intimidated and 
scared and didn't want to vote again. What has been the impact 
of this?
    Ms. Perales. Well, fortunately, we were able to get Senate 
Bill 1 amended, as a result of our testimony, to make sure that 
that same group of people targeted in 2019 would not be 
targeted again. However, there is still a piece of this bill 
that requires, as you mentioned, these monthly checks for 
citizenship. The issue here is going to be if they employ loose 
matching, what you will end up with is a U.S. citizen, perhaps 
a young man who shares the same name as his father, and his 
father is not a U.S. citizen, has been excused from jury duty 
for non-citizenship. This type of matching system, unless it is 
done perfectly, is going to vacuum up immediate relatives of 
non-U.S. citizens in the Latino and Asian American community 
and force them to jump through additional hoops.
    Mrs. Maloney. Representative Bernal----
    Mr. Raskin. Madam Chair, please take this last question, 
and then your time is up.
    Mrs. Maloney. OK.
    Mr. Raskin. Yes.
    Mrs. Maloney. Is there any legitimate justification for 
this proposal?
    Mr. Bernal. No.
    Mrs. Maloney. Well, Mr. Chairman, let's not kid ourselves. 
Texas' supposed efforts to stop non-existent voter fraud are no 
more than a thinly veiled attempt to suppress Americans' right 
to vote, a right guaranteed in our Constitution. I yield back.
    Mr. Raskin. Thank you, Madam Chair, and I now go to Mr. Roy 
from Texas for his five minutes of questioning.
    Mr. Roy. I thank the chairman, and I also thank the 
chairman for allowing me to waive on. Obviously, I was the 
ranking member and served with you in this last Congress, so I 
appreciate that very much.
    Mr. Raskin. And it is good to see you back, and I should 
tell you that my friend, Jennifer Lord, who is your constituent 
and a conservative Republican, is watching us today.
    Mr. Roy. Excellent.
    Mr. Raskin. So, please be on your best behavior.
    Mr. Roy. I appreciate that, and great to see my, you know, 
colleagues from Texas, although I wish it were under slightly 
different circumstances. Obviously, I think that you guys 
should be in Austin, Texas, performing those duties. Let me ask 
you a couple quick questions here, and I am just going to 
scatter these around. Just give me ``yes'' or ``no'' answers, 
if you can. Representative Bernal, is Section 2 of the Voting 
Rights Act remaining full and in effect?
    Mr. Bernal. Excuse me?
    Mr. Roy. Is Section 2 of the Voting Rights Act remaining 
full and in effect right now?
    Mr. Bernal. Yes.
    Mr. Roy. And are you aware, was it just Section 5 that was 
overturned in the Shelby County decision eight years ago?
    Mr. Bernal. Yes.
    Mr. Roy. Right, and the reason that it was overturned was 
that the body, this body, failed to update the formula using 
50-year-old data and a 50-year-old formula. ``Yes'' or ``no,'' 
is that why it was overturned?
    Mr. Bernal. That was among the reasons.
    Mr. Roy. So, the Voting Rights Act remains in effect. The 
1965 Voting Rights Act remains in effect. That provision, 
Section 5, is what was overturned because it was 50-year-old 
data. May I ask another question on this of each witness? Do 
you believe that Texas should have to submit to the Department 
of Justice for any changes that it makes in its voting laws or 
formulas?
    Mr. Bernal. Yes.
    Mr. Roy. Ms. Collier or Representative Collier?
    Ms. Collier. This historical nature of Texas'----
    Mr. Roy. Just ``yes'' or ``no,'' do you think Texas' 
election laws should have to submit to the Department of 
Justice for preclearance?
    Ms. Collier. Not only for that. For maps as well.
    Mr. Roy. And, Representative Thompson, do you believe that 
they should have to submit to the Department of Justice for 
preclearance?
    Ms. Thompson. Yes.
    Mr. Roy. So, for the record, the Representatives from Texas 
believe that they should have to defer to Washington, defer to 
the Federal Government on what we should do for election laws 
in the state of Texas. Now, the three of you are aware that you 
are, in fact, violating Texas law by being here right now 
instead of being in Texas during legislative session, and that 
it would be in order to arrest you were you in the state of 
Texas to get you back to the State House. Do we agree that 
those are the facts? Representative Bernal?
    Mr. Bernal. I am not sure those laws are constitutional.
    Mr. Roy. But is that the law in the state of Texas? We can 
argue the constitutionality.
    Mr. Bernal. I don't think so.
    Mr. Roy. The law of the state of Texas is that you are 
supposed to be in session and that you are supposed to be there 
carrying out your constitutional duty. Do you support H.R. 1, 
the Federal law that was passed here in the House of 
Representatives, Representative Bernal?
    Mr. Bernal. Yes.
    Mr. Roy. Representative Collier?
    Ms. Collier. I will stand with the congressional members 
who passed it, so I support their----
    Mr. Roy. Representative Thompson, do you support H.R. 1?
    Ms. Thompson. I do. Mr. Chair, I would like just to say I 
am ready to be arrested. I am not violating the law, and I am 
representing my constituents, and I stand ready----
    Mr. Roy. Representative Thompson. Representative Thompson, 
I----
    Ms. Thompson. Bring the handcuffs on, and I am ready to go.
    Mr. Roy. Representative Thompson, reclaiming my time. I 
appreciate that that is your view on the matter. I think that 
makes the case precisely. With respect to H.R. 1, each of the 
witnesses, one said that she opposed voter ID, two said some 
forms of voter ID. I would point out and just want to clarify 
that H.R. 1 would, in fact, say that an individual in the state 
that is eligible to cast a vote in an election for Federal 
office, the state may not impose any additional conditions or 
requirements on the eligibility of the individual to cast a 
vote in such election by absentee ballot by mail, in other 
words, Federal prohibition on the use of voter ID with respect 
to absentee ballot by mail, and interfering with the state's 
rights or ability to use voter ID.
    I have heard a number of witnesses testify about the lack 
of examples of the witnesses of fraud. On September 3, 2014, at 
the United States District Court in Corpus Christi, Democrat 
election expert, Buck Wood, was asked if there was a voter 
fraud occurring by mail. His response, and I quote, was, ``Yes, 
very definitely.'' Do you agree with him, Representative 
Bernal?
    Mr. Bernal. Do I agree that Buck Wood was aware of a case 
of voter fraud?
    Mr. Roy. Was asked if there was voter fraud occurring by 
mail. His response, and I a quote, was ``very definitely.'' Do 
you agree with that?
    Mr. Bernal. I believe that he said that, sure.
    Mr. Roy. Representative Collier, do you agree with him, his 
assertion?
    Ms. Collier. I cannot confirm or deny. I am not sure what--
--
    Mr. Roy. Representative Thompson?
    Ms. Thompson. I am not aware of him saying that.
    Mr. Roy. OK. In 2007, your colleague, who also happens to 
be here in D.C., Rafael Anchia, said, and I quote, ``Vote by 
mail, that we know, is the greatest source of voter fraud in 
this state.'' Do you agree with Representative Anchia, ``yes'' 
or ``no?'' Greatest source of fraud, ``yes'' or ``no.'' Do you 
agree with Anchia or no?
    Mr. Bernal. I have nothing to base the fact that the 
greatest source of voter fraud was----
    Mr. Roy. OK. So, you are disagreeing with Representative 
Anchia. Representative Collier?
    Ms. Collier. I don't know the context, so I cannot confirm 
or deny what you just said.
    Mr. Roy. Well, it was an exact quote, ``Vote by mail, that 
we know, is the greatest source of voter fraud in this state.'' 
Do you agree with that?
    Ms. Collier. I am not sure what the context was.
    Mr. Roy. Well, that is the context, that statement, 
straight up. It is plain English.
    Ms. Collier. Well, give us the rest of it. Tell us what 
else he was talking about.
    Mr. Roy. The sentence, ``Vote by mail, that we know, is the 
greatest source of voter fraud in this state.'' Do you agree 
with that?
    Ms. Collier. Sir, I would decline to respond.
    Mr. Roy. Representative Thompson?
    Ms. Thompson. I think he would be better advantaged here if 
he was here to answer that question for you.
    Mr. Roy. Well, 18 years ago, Representative Garnett 
Coleman, a Democrat, tried to ban pre-printed ballot by mail 
applications. Do you agree with Representative Coleman that we 
should ban pre-printed ballot by mail applications? Represented 
Bernal?
    Mr. Bernal. I do not.
    Mr. Roy. Representative Collier?
    Ms. Collier. I am not aware of that statement.
    Mr. Roy. Do you agree, though, with that position?
    Ms. Collier. I cannot say what he thought or what he did.
    Mr. Roy. Representative Thompson?
    Ms. Thompson. I am not aware of him making that statement.
    Mr. Bernal. Congressman, can I clarify the question?
    Mr. Roy. Very quickly because I am running out of time.
    Mr. Bernal. Are you talking about an application or are you 
talking about a ballot?
    Mr. Roy. A pre-printed mail-in ballot.
    Mr. Bernal. No. Application, yes. Ballot, no.
    Mr. Roy. OK. All right. And then with respect to the 
assertions earlier that I think were placed in the record, the 
chairman put in a number of videos and statements from Texas 
constituents. I would ask to insert into the record a document 
that I have outlined a number of examples of voter fraud, 
including statements from Black witnesses who testified in the 
Texas legislature about voter fraud.
    Mr. Raskin. This is a statement from you?
    Mr. Roy. Yes.
    Mr. Raskin. OK.
    Mr. Roy. Yes.
    Mr. Raskin. Without objection.
    Mr. Roy. And in that, you have Gerry Wayne Monroe, Aubrey 
Taylor, Demetria Smith. Demetria's quote was, ``Democrats are 
going after my ancestors. You are making a mockery of my 
suffrage and use it to your advantage for your own agenda so 
you can keep your own seat. It is not about the people.'' 
Aubrey Taylor: ``Hear me. Elections are being stolen in Harris 
County, and if something is not done right now, I guarantee 
you, get ready to lose the state.'' Gerry Wayne Monroe, ``My 
community is suffering because there are kingmakers, and they 
cheated in the last election.'' He testified that he witnessed 
ballot harvesters take $22,000 in pay. He affirms the ballot 
harvesters were soliciting nursing homes. He testified that a 
poll location had spare IDs available for voters if they did 
not have one.
    The fact of the matter is there is fraud in elections. The 
fact of the matter is the legislature is putting forward a good 
faith effort to try to form our election laws in the state of 
Texas. And the fact of the matter is Texas Democrats fled Texas 
to Washington where they are asking Washington to step over the 
interest of the voters of Texas. I yield back.
    Mr. Raskin. All right. Thank you, Mr. Roy. It is great to 
have you back. And I now will recognize Ms. Norton for her five 
minutes of questioning.
    Ms. Norton. Thank you very much, Mr. Chairman, and I want 
to begin by appreciating your words about Bob Moses. I worked 
with Bob Moses in the Student Nonviolent Coordinating 
Committee, or SNCC, in Mississippi, and much appreciate your 
remembering him. My question goes to, and I would like to put 
up a slide.
    [Slides.]
    Ms. Norton. According to records obtained by the local 
Houston press outlet, KHOU 11, the Texas attorney general 
received 197 complaints of voter fraud from 2015 to 2020, 
during which over 44 million votes were cast. That is four-
thousandths of one percent. Only 23 of these complaints 
pertained to the 2020 election, and there is another slide 
there, during which over 11 million votes were cast. Now that 
is one percent of 478,260 votes. So, this is my question for 
Ms. Perales. How does the discussion of these pending cases 
mislead the people of Texas about the prevalence of voting 
fraud given what I have just shown you?
    Ms. Perales. There is just a complete and total mismatch 
between the very egregious restrictions that are being put 
forward in this bill, and which many of the members here today 
are refusing to engage on these specific provisions. But there 
is just a complete mismatch between what is in these bills and 
the very sporadic, individualized, anecdotal reports of voter 
fraud in Texas.
    Ms. Norton. My next question then is for Representative 
Bernal. The Governor, Governor Abbott's, own Administration has 
rejected claims of fraud. Keith Ingram, who is a senior deputy 
of the secretary of state and director of state elections, 
testified that elections, and here, I am quoting him, that the 
election was ``smooth and secure.'' So, Mr. Bernal, how did 
Republicans react to Mr. Ingram's conclusion?
    Mr. Bernal. I don't think they care. I think they are going 
to do what they want to do, and it doesn't matter what facts or 
figures they have in front of them. It doesn't matter if it is 
from our attorney general or secretary of state. They have a 
different agenda that is not based on numbers or reality, and 
that is why we are here.
    Ms. Norton. This is a--thank you--a question for 
Representative Collier. In the failure to find fraud, certainly 
not for lack of trying, Attorney General Ken Paxton doubled the 
hours of his staff spent on fraud cases this cycle--22,000 
hours--and yet only charged 16 cases, minor cases, none of 
which resulted in jail time. So, Representative Collier, what 
do you make of the argument that prosecutors simply do not have 
the tools to uncover massive voter fraud?
    Ms. Collier. Well, thank you so much, Congresswoman, for 
that question. There isn't widespread voter fraud. That is the 
respondent fact. The ACLU did a study and found that 72 percent 
of the investigations by the Texas attorney general, who, by 
the way, is under indictment for fraud himself, for securities 
fraud himself, have been lodged against people of color, Black 
and brown individuals. When you have a bill that increases 
penalties, creates new criminal penalties against voters, 
potential voters, the conclusion that we can reach is that 
those would be targeted against people of color.
    Ms. Norton. What are your thoughts, Representative Collier, 
on how the aggressive prosecution of alleged voter fraud has 
already affected voters of color.
    Ms. Collier. And you raise a good point because the way 
that the bill is written, there is mens rea. In law, we call 
that the intent. Did I have the intent to defraud? No, that is 
not even a question. It is whether the act was actually 
completed. So, the state of Texas has gone off after innocent 
mistakes, like with Crystal Mason and Hervis Rogers, where they 
were at it over a year to pursue charges just before the 
hearing on this harmful election bill was heard. So, it is all 
a part of the narrative to politically posture and restrict our 
freedom to vote.
    Ms. Norton. Mr. Chairman, can I simply thank you for this 
hearing on behalf of the voters of the District of Columbia, 
who are struggling for statehood and have no vote in this House 
or in the Senate. So, this hearing on voter suppression means a 
great deal to me and to them.
    Mr. Raskin. And your comments mean a lot to us, 
Representative Norton, and as do the rights of your 
constituents, who never stormed the Capitol even though they 
have been disenfranchised for a long time. I thank you, and I 
recognize Representative Cloud for five minutes.
    Mr. Cloud. Thank you. I find it odd that we are talking to 
you here today in Washington, DC. You, like us, took an oath of 
office to protect, to defend the laws of the Constitution of 
the United States, you for Texas. And as a Texan and as a 
constituent, it is odd to see you here instead of back in Texas 
doing the job that you were elected to do. Now, you have talked 
about the fact that you are here to help break quorum. Now, 
your understanding then is the ability for you to break quorum 
has to do with the fact that your presence is not there. Is 
that correct? Is that my understanding? It is not a hard 
question.
    Mr. Raskin. Who are you directing the question to? I don't 
think you----
    Mr. Cloud. I guess my question to you is. Is it your 
understanding that a quorum requires your physical presence? 
Yes? No?
    Mr. Raskin. To whom are you directing the question?
    Mr. Cloud. Either one of you. All of you. The 
representatives here.
    Ms. Thompson. Congressman----
    Mr. Cloud. OK. This is not a complicated question. The 
point of the matter----
    Ms. Thompson. No, but would you be kind enough to restate 
your question, please?
    Mr. Cloud. The point of the matter is that the Texas 
Constitution requires a quorum for you to be there in order to 
do business. That is understood that that means your physical 
presence there. The U.S. Constitution requires our presence 
here, but we have enacted proxy voting in a way around that, 
and we need to go back and return to the days before proxy 
voting here in order to do business. I would suggest that you 
return to Texas and continue to work on the job that Texans 
elected you to do. The spirit of Texas is all about doing the 
work that we are set to do. We can remember the Alamo and all 
of those kinds of things, and we have never been ones to run 
from a fight, and I would encourage you not to do that as well. 
And I would yield the remainder of my time to my friend from 
Texas, Pat Fallon.
    Mr. Fallon. I have good news. I got a text from your 
colleagues that are in Austin, and on your concern, 
Representative Collier, about the TDL and the social security 
number not matching, they are aware of it. They said they 
discussed it with you all, and they are going to cure it via an 
amendment. So, we spent a lot of time on something that is 
going to get fixed.
    Mr. Raskin. So, that speaks well for coming to Washington. 
They made a little bit of progress.
    Mr. Fallon. It is good to have context, right? So, 
Representative Thompson, do you feel the 2020 November general 
election in Harris County was conducted fairly in your home 
county?
    Ms. Thompson. The secretary of state of Texas said it was.
    Mr. Fallon. Ah, he is not here. You are. Do you believe?
    Ms. Thompson. It was.
    Mr. Fallon. You believe it was fair. Is that fair to say? 
OK.
    Ms. Thompson. It was fair.
    Mr. Fallon. So, I looked up the drive-through locations. 
There were 10 of them, drive-through locations in Harris County 
and where they were located, because where they are located is 
important. I am sure you are familiar with Precinct 1, former 
senator, Rodney Ellis, now commissioner. He is the commissioner 
of Precinct 1 in Harris County? OK. Is that a Democratic area?
    Ms. Thompson. You mean the entire----
    Mr. Fallon. No, I mean, is it a majority Democratic area?
    Ms. Thompson. Yes.
    Mr. Fallon. Yes. It is about somewhere between 75 percent 
and 81 percent Democratic area. Interesting, of these 10 
locations, five of them were located in Precinct 1. Four of 
them are located just outside Precinct 1 in Democratic areas, 
and one was located at the Humboldt Civic Center, which is 
clearly a Republican area. Sorry, go ahead. So, nine out of 10 
of these drive-through locations that you all love so much, 
and, by the way, there are no drive-throughs in the other 253 
counties, but 9 out of 10, so 90 percent of them just happen to 
be in Democratic areas. A hundred twenty-eight thousand seven 
hundred and ninety-six ballots were cast. I would say, 
respectfully, that that definition of ``fair'' leaves a lot to 
be desired.
    And you were sworn in in 1973. Is that right, 
Representative Thompson?
    Ms. Thompson. Yes, sir.
    Mr. Fallon. So, for 30 years, your first 30 years, you 
enjoyed a majority in the Texas House of Representatives, 
correct? Democrats were the majority?
    Ms. Thompson. Right.
    Mr. Fallon. Did the Republicans ever use this ``right'' or 
``tactic'' to break quorum in those 30 years?
    Ms. Thompson. We are using the same procedure that----
    Mr. Fallon. No, I am sorry----
    Ms. Thompson [continuing]. Used two years ago----
    Mr. Fallon [continuing]. Respectfully, because we have very 
little time----
    Ms. Thompson [continuing]. When the Republicans of the 
state of Oregon broke quorum. And as you know, Pat, it is in 
the rules. The rules allow for a quorum.
    Mr. Fallon. Respectfully, I am just asking----
    Ms. Thompson. And we broke quorum to represent----
    Mr. Fallon. Mr. Chairman, I have to reclaim my time.
    Ms. Thompson [continuing]. The constituency of our 
districts.
    Mr. Raskin. OK. I will give you another----
    Ms. Thompson. And because of the fact that we want to be 
able to have a voice in our democracy----
    Mr. Fallon. That is not what I asked you.
    Ms. Thompson [continuing]. Is the reason why we are here. 
The real reason, what you should be asking me is, why are you 
having a problem because Texas happens to be 84 percent people 
of color and 16 percent of Anglo, and it looks like the power 
is about to swing, and you having a problem by wanting all of 
these laws in place.
    Mr. Raskin. All right. We are going to accept that as your 
response. I don't want to get into a Texas tussle here. We will 
go back to you, Mr. Fallon. You get your final wrap-up question 
or statement.
    Mr. Fallon. Thank you very much. I consider myself a person 
of color. I don't know what it is, kind of pinkish, maybe----
    Ms. Thompson. We are friends, Mr. Chairman. He and I are 
friends.
    Mr. Raskin. Representative Thompson, obviously you guys 
have roots in Texas.
    Mr. Fallon. Representative, I may be white, but I am 
colorful, OK? But anyhow.
    Ms. Thompson. Pat, you know I had to honor working with 
you, and it was a pleasure.
    Mr. Fallon. No. Thank you. But respectfully, because I did 
talk to Speaker Craddock, the first 30 years, because you all 
served together, the Republican Party, the Republicans in the 
Texas House never broke quorum, and that was the point. They 
never did, and, unfortunately, you have been party to it three 
times, and Representative Collier and Bernal now twice.
    Ms. Thompson. May I correct you on something? During the 
first 30 years, we broke quorum many times. I can tell you 
because on different bills, we just may not have gone as long 
as we are now, but it may have been for a few hours or 
overnight or a day. We broke quorum several times.
    Mr. Fallon. OK. Just for the record----
    Ms. Thompson. Because I participated in those breaks.
    Mr. Fallon. Yes, but Republicans didn't do it as en masse. 
That is what----
    Ms. Thompson. Because it was only about eight or nine of 
you there.
    Mr. Raskin. All right.
    Ms. Thompson. How could you?
    Mr. Raskin. All right, Mr. Fallon. I don't----
    Ms. Thompson. I wouldn't have made a difference.
    Mr. Raskin. I don't mess with Texans messing with Texans, 
so I----
    Mr. Fallon. Thank you, Madam Chair.
    Mr. Raskin. I am going to call it off there because we have 
got to go to Congresswoman Alexandria Ocasio-Cortez for her 
five minutes of questioning because then we are going to have 
to break and vote, but it is not over because we have got more 
people. And I also want to thank Congresswoman Sheila Jackson 
Lee, who spent the day with us. I don't know if she is still 
here. Congresswoman Ocasio-Cortez, you are recognized.
    Ms. Ocasio-Cortez. Thank you so much, Chair Raskin. And, 
you know, even just recently, just a couple of days ago, we saw 
that the Texas Senate passed a bill that removes education of 
Martin Luther King, women's suffrage, and Native-American 
history from required curriculum in the state of Texas. So, if 
anyone even studied American history knew the work of King, 
knew the work and the necessity of women's rights and suffrage 
and Native American history in this country, they would know 
the importance of understanding this history in the context of 
present law. So, let's start with a history lesson, and let's 
talk about Jim Crow.
    According to Public Broadcasting Service, they define ``Jim 
Crow'' as ``the segregation and disenfranchisement laws known 
as Jim Crow, represented a formal, codified system of racial 
apartheid.'' That is not a subjective definition. This is a 
settled definition of Jim Crow in the context of American 
history. I understand that the Texas State Senate thinks that 
is not relevant or necessary to teach, but it is important in 
the context of understanding present law. Now, Representative 
Thompson, you were born in Jim Crow, in the era of Jim Crow. Is 
that correct?
    Ms. Thompson. Yes, it is.
    Ms. Ocasio-Cortez. Now, briefly, what were some of the 
voting limitations that you know of that targeted Black voters 
during the Jim Crow era?
    Ms. Thompson. The Black Code was one of them because it 
denied African Americans the right to vote, and then after that 
came the poll tax, and the poll tax stayed even after the law 
was ruled unconstitutional, remained until 1966 in Texas.
    Ms. Ocasio-Cortez. Now, Representative, it is important to 
know that until 1966, we had racial apartheid known as Jim Crow 
in the United States of America. Now, during that era of Jim 
Crow, Representative Thompson, as you noted, that includes a 
polling tax, correct?
    Ms. Thompson. Yes, it does.
    Ms. Ocasio-Cortez. That includes voter ID laws, stringent 
voter ID laws at that time, correct?
    Ms. Thompson. Absolutely, yes.
    Ms. Ocasio-Cortez. Citizen checks, correct?
    Ms. Thompson. Yes.
    Ms. Ocasio-Cortez. Difficult hours to vote during Jim Crow, 
correct?
    Ms. Thompson. Right.
    Ms. Ocasio-Cortez. And had the normalization of white 
supremacist voters monitoring and intimidating Black voters at 
polling locations during the era of Jim Crow, correct?
    Ms. Thompson. That is right because they had----
    Ms. Ocasio-Cortez. Now, let's walk through some of the 
dangerous measures proposed by your Texas State Republican 
colleagues and supported by Governor Abbott that they are 
trying to enact today. So, the proposed Texas bills, S.B. 1, 
H.B. 3, would set new ID requirements so voters must provide 
their driver's license number, or, if they don't have one, the 
last four digits of their social security or a signed 
affidavit, correct?
    Ms. Thompson. Right.
    Ms. Ocasio-Cortez. Now, they would also place a ban on the 
distribution of mail-in ballot applications, correct?
    Ms. Thompson. Correct.
    Ms. Ocasio-Cortez. As well as monthly citizenship checks, 
monthly citizenship checks for voter registration, correct?
    Ms. Thompson. Correct.
    Ms. Ocasio-Cortez. They would ban extended hours during 
early voting. Is that correct?
    Ms. Thompson. For those persons we call essential workers 
who helped us during the pandemic, yes.
    Ms. Ocasio-Cortez. And the proposed bills, today, right 
now, will create an array of new criminal penalties and 
requirements for folks who assist voters at the polls or people 
who assist others planning to vote by mail. Is that correct?
    Ms. Thompson. That is correct.
    Ms. Ocasio-Cortez. These bills would then expand the 
authority of partisan poll watchers by granting them what is 
known as ``free movement'' at a polling location, which could 
allow them to harass voters, correct?
    Ms. Thompson. People with no training coming in your area.
    Ms. Ocasio-Cortez. Representative Thompson, this sounds an 
awful lot like the Jim Crow that you grew up in and were born 
into. Based on your lived experience, would you say that these 
proposed voting laws are remnants of Jim Crow? I shouldn't even 
say ``remnants.'' Revivals? An attempted revival of Jim Crow?
    Ms. Thompson. Absolutely. Jim Crow 3.0.
    Ms. Ocasio-Cortez. And would you agree that S.B. 1 and H.B. 
3 are systematic measures to impede your community, Black 
communities, Latino communities, and a wide variety including, 
as Representative Pressley noted, disabled Americans, the 
constitutional right to vote as was done in the past?
    Ms. Thompson. Yes.
    Ms. Ocasio-Cortez. Now, let's talk about ``the myth'' of 
voter fraud. According to MIT Election Data and Science Lab, 
only about .00006 percent of total mail-in votes cast are 
results of voter fraud. That is less likely than being struck 
by lightning. Representative Bernal, are you familiar with the 
2016 case, Texas Association of Hispanic County Judges v. Greg 
Abbott, the same Governor who is supportive of these bills?
    Mr. Bernal. Yes.
    Ms. Ocasio-Cortez. And what did we learn?
    Mr. Bernal. We learned that, once again, Texas 
discriminated against voters because of their race. In fact, 
over the past 10 years, Texas has been found to have acted 
against the interests of minorities over 10 times by three 
Federal courts with Republicans----
    Ms. Ocasio-Cortez. So, to clarify, the Fifth Circuit 
already told Governor Abbott that these voter ID propositions 
are discriminatory, and Abbott knows this, has been told by the 
courts, and is still continuing to support laws that he knows 
are discriminatory as ruled in a court of law and by judges.
    Mr. Bernal. Every chance----
    Mr. Raskin. The witness may answer that question, and then 
the gentlelady's time has expired.
    Mr. Bernal. Every chance they get.
    Ms. Ocasio-Cortez. Thank you very much, and I yield my 
time.
    Mr. Raskin. Thank you, Ms. Ocasio-Cortez. All right. So, 
here is what we are going to do. Votes have been called. There 
are nine votes. We are just going keep it going. I hope my 
friend, Congresswoman Norton, is still on the call because 
being the representative the people of Washington, DC, she 
doesn't have to go vote, and I am hoping she can fill in for me 
when I have got to do it because we have got some very 
distinguished representatives who are still yet to do their 
questioning. I am going to go ahead and call on Representative 
Tlaib for her five minutes of questioning.
    Voice. Mr. Chairman?
    Ms. Tlaib. Thank you so much----
    Mr. Raskin. Yes?
    Mr. Sessions. Mr. Chairman, I would insist that we have 
normal, regular procedure, that we go back and forth.
    Mr. Raskin. Is Mr. Comer here? I was waiting on him.
    Mr. Sessions. Well, as you know, they have called a vote. 
And so, I would insist that in that place, because you and I 
only----
    Mr. Raskin. Yes.
    Mr. Sessions [continuing]. Only one minute ago agreed we 
would continue. And I am for continuing, but still, the 
Republicans would have a chance to respond for five minutes, 
not----
    Mr. Raskin. OK. Well, is there another member----
    Mr. Sessions.[Inaudible.]
    Mr. Raskin. I mean, I am trying to get through all the 
members----
    Mr. Sessions. Well, that may be true, sir, but they, as you 
know, have gone to vote.
    Mr. Raskin. OK. The moment he gets back, we will go to him.
    Mr. Sessions. Well, I am going to say, sir, that I believe 
that rather than 25 minutes of straight Democratic members, 
that the Republicans be given five minutes, and then the 
Democrats be given five minutes, and the Republicans be given--
--
    Mr. Raskin. Oh.
    Mr. Sessions. I can go and get someone.
    Mr. Raskin. I got you.
    Mr. Sessions. But you and I cut a deal right here a minute 
ago.
    Mr. Raskin. Mr. Sessions, forgive me, and I am trying to 
honor that deal. I am told that it was your staff that just 
told us that Mr. Comer was not here and we should go ahead.
    Mr. Sessions. Well, but that did not mean go ahead, that we 
would not allow a Republican in that place.
    Ms. Tlaib. Well, I think two Republicans can go in a row, 
right, Chairman, if they come back? I don't think that----
    Mr. Raskin. My friends, in the spirit of Elijah Cummings, 
and I know I am a poor substitute, we are going to get through 
this just fine. Every member of this committee is going to get 
the right to question.
    Mr. Sessions. Mr. Chairman, you and I agree with that, and 
I have never agreed. I just want to know what the rules are.
    Mr. Raskin. OK. Yes. So, I am going to make sure every 
member gets to question. I am not going to try to cut anybody 
off. Poor Ms. Tlaib has been waiting so patiently----
    Mr. Sessions. And that we respect.
    Mr. Raskin. All right. Good.
    Ms. Tlaib. OK.
    Mr. Raskin. And she always has such good humor. Ms. Tlaib, 
you are recognized for your five minutes of questioning.
    Ms. Tlaib. No. Thank you so much to both of you as we 
continue this really important hearing. You know, thank you, 
Chairman Raskin, for really wanting to put this forward, and 
thank you to all the honorable representatives of the American 
people who risked so much for the rights and freedoms of so 
many. I want you all to know, you know, I always have John 
Lewis right over my shoulder as a reminder that we sometimes, 
in a nonviolent way, have to push back against oppression and 
injustice, and you all are doing it, and I think it is 
extremely patriotic what you all are doing on behalf of your 
residents. And please don't allow my colleagues to intimidate 
or bully you. You know what the risks were, but also you know 
what is at stake, and so I just want you all to know you are 
inspiring. Your courage is inspiring to me.
    You know, some colleagues continue to not like the title of 
this committee. Well, how about we equally are, you know, angry 
and upset at things like ``the election was stolen.'' I am so 
appalled by those that continue to enable that kind of rhetoric 
that really brought so much violence on January 6 to this 
Capitol. And I want you all to know it wasn't my immigrant 
neighbors here at the Capitol. They are not attacking our 
democracy and that continue to attack, you know, people of 
color as if they somehow were the reason that the outcome of 
this election was not in their favor.
    And just to remind my colleagues, please, you all won with 
the same system of democracy. You won your elections with the 
same system. The forever-impeached President won his election 
with the same system that you are now trying to tear down, that 
you are trying to dismantle. You all won your elections with 
that same system that you now are saying is fueled with fraud 
and all these other things. So, I do want, Mr. Chair, if I may, 
I think it is important to put into the record an article that 
says, ``Texas Had an Outsized Presence at the Capitol 
Insurrection,'' as the title.
    Mr. Raskin. Without objection.
    Mr. Raskin. And so, let's be clear. These Republican voter 
suppression bills took pains to avoid mentioning race, but they 
are aimed directly American voters of color. This is a blatant, 
disgusting attempt to return to Jim Crow disguised by expensive 
Washington consultants and lobbyists. They are covering it up, 
but we all know what this is about. We know this because this 
playbook isn't new, and I know Ms. Thompson knows this. I mean, 
in 2016 a Federal judge struck down similar efforts in North 
Carolina where they wrote, ``Although the new provisions target 
African-Americans with almost surgical precision, they 
constitute remedies for the problems justifying them and, in 
fact, impose cures for problems that did not exist. Thus, the 
assertive certifications cannot and do not conceal the state's 
true motivation.'' And now the Texas legislature, and to note, 
Michigan Republicans, I might add, are now doing everything 
they can to make it harder for my Black and brown neighbors 
across the country to vote, wanting to employ these very tools 
to use the new requirements for mail-in voting to suppress 
voters of color.
    These proposed bills create intentional confusion regarding 
IDs and requirements designed to trick individuals and really 
intimidate individuals from voting. And I know Nina had talked 
a little bit about that, and knowing my mother, who is an 
immigrant, it would have devastated her to have that happen to 
her as she went to exercise her vote. They also are threatening 
jail time for elected officials who solicit or mass mail voter 
registration applications, criminalizing election officials who 
encourage citizens to vote, you all. You know, all of us have 
done that. ``Go vote.'' ``Have your voices heard.'' Oh, now, 
you are going to put handcuffs on those people. And while this 
provision would put election officials in jail for mailing 
absentee ballot applications to eligible citizens, you all, it 
would still allow political parties to do the same thing. I 
cannot see any good faith reason why political parties would be 
able to help people vote absentee, but not nonpartisan election 
officials.
    We must face the facts about these bills in Texas and 
Michigan and countless others being pushed by my Republican 
colleagues are enabled by them across the Nation. They are an 
attack on our American democracy. They failed. They failed, and 
now they want to cheat, and that is the exact truth. They want 
to somehow dismantle anybody that looks like me or has a name 
like mine to be able to go vote freely. And it makes me angry 
because they all benefited from that same system. They all are 
in their places of power because of that same system, and now 
because the forever-impeached President did not win, they are 
putting this man before their country. If they do that, the 
blame for the death of our republic will not fall on those 
backing the former impeached President, but on those who lack 
the courage to make a stand.
    So, Rep. Thompson, I would like to close by hearing your 
voice here, which has been very powerful. Why do you think 
Republicans are pushing to make it harder to vote and going so 
far as wanting to jail election officials?
    Mr. Raskin. Thank you, Ms. Tlaib, and the witness may 
answer that question, and thank you very much for your 
questioning.
    Ms. Thompson. I think there is a change of the demographics 
in Texas when we have 84 percent of the people of color that 
makes up the population of 29 million people, and only 16 
percent of the people who has been controlling feel rather 
threatened at this particular time. That is what I think the 
whole thing is about.
    Mr. Raskin. All right. Now, thank you very much for that 
answer. And here is what we are going to do. For both 
biological and parliamentary reasons, we are going to take a 
15-minute break, OK? The witnesses have requested some time, so 
everybody can go use the restroom, make a call, whatever you 
need to do. We will all go vote, and we will resume here in 15 
minutes, and we will begin with the Republican side, I think 
Mr. Comer, if he is back, then we will go to Mr. Sarbanes, and 
we will continue to make sure every member gets their 
questioning. So, we have a temporary recess.
    [Recess.]
    Ms. Norton.[Presiding.] We are ready to resume, and I 
recognize Mr. Comer for five minutes.
    Mr. Comer. Thank you, Madam Chair. I just want to briefly 
say I have studied the Texas bill. I have studied the Georgia 
voting bill that have been in the news a lot. I think the 
liberal mainstream media mischaracterized both bills, 
significantly mischaracterized both bills. Both bills looked to 
me like it would make it easier to vote and harder to cheat, 
which is what every law-abiding legal American voter should 
want. With that, Madam Chair, I would like to yield the balance 
of my time to the gentleman from Texas, Mr. Fallon.
    Ms. Norton. The gentleman from Texas is recognized.
    Mr. Fallon. Thank you, Madam Chair. I just want to clarify 
something because you all are under oath, and I just want to 
make sure. Miss T, or Ms. Thompson, Representative Thompson, 
was there a meeting held before the special session that took 
about a half a day that involved Republicans and Democrats 
trying to work out this bill?
    Ms. Thompson. There was.
    Mr. Fallon. OK. And did you attend that meeting?
    Ms. Thompson. I did.
    Mr. Fallon. OK. And during the five-hour layout, there is a 
special committee that was appointed to hear this bill, and are 
you on that committee?
    Ms. Thompson. Vice chair.
    Mr. Fallon. OK. So, Chairman Andy Murr, during the layout, 
I believe it was five hours--he is the bill's author--talked 
about the concern that Representative Collier had about the 
mail-in ballot, if you use, you know, 20 years ago your social 
security number, but now you are using your driver's license 
number, because Representative Bucy specifically asked that 
question, and the commitment was made. Do you remember 
commitment being made by Chairman Murr? You might not. That is 
fine. I just want to----
    Ms. Thompson. I don't recall that.
    Mr. Fallon. If we watch the tape back, there will be a 
commitment publicly made by Chairman Murr that he would cure 
that and he would fix it with a floor amendment, so I just want 
to move on from that. Representative Collier, do you believe, 
and I am guessing that I know the answer, but I want to give 
you the chance to answer, that this bill, if it becomes law, 
would be restrictive?
    Ms. Collier. Can you explain? What do you mean, 
``restrictive?''
    Mr. Fallon. Harder to vote.
    Ms. Collier. I am sorry?
    Mr. Fallon. Harder to vote.
    Ms. Collier. Let me give you an example. As I sat here 
today, my integrity was questioned. The veracity of my 
statement was questioned by Congressman Sessions. He made an 
accusation that I was incorrect, and he said it with such 
authority that it called into question my actions. And based on 
that, it could deter someone from participating any further.
    Mr. Fallon. OK. Well, I am not Representative Sessions, but 
I am going to have to reclaim my time again. It is just because 
we only have----
    Ms. Collier. Well, you are asking about how it is going to 
make it harder if I have a partisan poll worker----
    Mr. Fallon. Representative Collier, if you don't want to 
answer the question, that is fine.
    Ms. Collier. Well, I just want to say it is hard.
    Mr. Fallon. I am just asking do you believe this bill is 
going to be restrictive. You oppose the bill in its current 
form, so I am guessing you don't think it is a good bill. Fair 
to say, ``yes'' or ``no?''
    Ms. Collier. What I believe is that this is going to be 
harder on people that they are going to be targeted----
    Mr. Fallon. To vote.
    Ms. Collier. It is going to be targeted for people of color 
to participate in the election.
    Mr. Fallon. OK. All right. So, you would say it is, at 
least, it is racially, maybe, motivated, but certainly racially 
negative.
    Ms. Collier. It will have a disparate impact on people of 
color.
    Mr. Fallon. OK. OK. And that is your view. We have two 
weeks of early voting in Texas. If we were to reduce that to 
one week, would you say that would have a disproportionate 
effect on people of color?
    Ms. Collier. I think you have to look at the totality of 
the circumstances. There are so many other things----
    Mr. Fallon. No, I mean, just say there are two weeks now--
--
    Ms. Collier. You can't just say it is that, though. It is 
more than that. It is also the hours, the location.
    Mr. Fallon. Right, so this expands the hours, but----
    Ms. Collier. No, it doesn't. This bill does not expand the 
hours.
    Mr. Fallon. OK. It goes----
    Ms. Collier. It reduces the hours.
    Mr. Fallon. OK. It does not. In 253 counties it expands the 
hours.
    Ms. Collier. We had 24-hour voting----
    Mr. Fallon. In one county in Texas.
    Ms. Collier. There was 24-hour voting, and now you cannot. 
That means it reduces hours.
    Mr. Fallon. Was there 253 counties that had 24-hour voting 
in the last cycle?
    Ms. Collier. It reduces the ballot----
    Mr. Fallon. No, there was not.
    Ms. Collier. It reduces the voting----
    Mr. Fallon. So, would you join me in condemning 
Connecticut, and New Hampshire, and Delaware, and New York, and 
New Jersey for being racially insensitive by not having two 
weeks of early voting. Some of those states don't have any 
early voting.
    Ms. Collier. I am not familiar with what is going on in 
those other states.
    Mr. Fallon. But you would say that early voting is a good 
thing?
    Ms. Collier. I would believe that you have to look at the 
totality of the circumstances.
    Mr. Fallon. OK. So, you don't know where your stance is on 
early voting. Drive-through voting. Can you name any states 
that allow 24-hour voting currently in statue?
    Ms. Collier. I know what Texas does, and Dallas County had 
drive-through registration.
    Mr. Fallon. No, that is not the question. Madam Chair, I am 
going to have to reclaim my time on that one. How about drive-
through voting? Are you aware of any states that have drive-
through voting?
    Ms. Collier. Harris County had drive-through voting. That 
is what I am aware of.
    Mr. Fallon. Any other states other than Texas?
    Ms. Collier. That is the state I am aware of, Texas.
    Mr. Fallon. OK. So, there are none that you know of. No 
other of the 50 states. So, I think that what we have seen 
here, now, and correct me if I am wrong. You called this bill 
Jim Crow 2.0?
    Ms. Collier. I have not made that statement today.
    Mr. Fallon. Have you made in the past?
    Ms. Collier. No.
    Mr. Fallon. You have never said it?
    Ms. Collier. I don't believe I have.
    Mr. Fallon. OK. But you do believe----
    Ms. Collier. It is discriminatory, though.
    Mr. Fallon. You believe it is racially discriminatory?
    Ms. Collier. It does have a disparate impact on people of 
color.
    Mr. Fallon. So, do you believe that people that support 
this bill are practicing racial discrimination if you vote for 
it?
    Ms. Collier. I think that the outcome of the bill----
    Mr. Fallon. It would be clear----
    Ms. Collier [continuing]. Would be a disparate impact. I 
really believe it is more politically motivated.
    Mr. Fallon. So, are you calling your Republican colleagues 
racist in any form by supporting----
    Ms. Collier. They are uninformed.
    Mr. Fallon. They are uninformed. Miss T, you said that 
there were Proud Boys that were practicing intimidation. I have 
never met a Proud Boy.
    Ms. Thompson. I didn't say they were Proud Boys.
    Mr. Fallon. They looked like Proud Boys.
    Ms. Thompson. They looked like they could be. Well, I think 
that you saw some up here on January the 6, didn't you?
    Mr. Fallon. Yes, I was about to fight some. I don't know 
who they were. They were criminals that, you know, breached the 
Capitol, and I wasn't too happy about it. So, how would you 
describe a Proud Boy? What do they look like?
    Ms. Thompson. Well, let me tell you what the people looked 
like that I talked about, the poll watchers that comes to my 
area. They are white, look like they could be people, the Proud 
Boys or the Ku Klux Klan, and they----
    Mr. Fallon. Just by looking at them. You are judging a book 
by its cover.
    Ms. Thompson. Well, you know, they haven't sent you yet. I 
am still waiting for them to send you to my area because----
    Ms. Norton. The gentleman's time has expired.
    Ms. Thompson [continuing]. It would be amenable to me if 
you had a chance to come.
    Mr. Fallon. I believe that there were no complaints filed 
in Harris County at all on voter intimidation, so, therefore, I 
believe it is more of an urban legend, in fact. Thank you, 
Madam Chair. I yield back.
    Ms. Norton. I now yield five minutes to Mr. Sarbanes of 
Maryland.
    Mr. Sarbanes. Thank you very much, Madam Chair. Thank you 
all for being here. Thank you for coming to Washington at a 
critical moment in our Nation's history. People keep trying to 
characterize what you did as fleeing Texas, but I think what 
you did was you were pulled to the Nation's capital by the 
power of your experience and came as a clarion call to Congress 
and to the President to do all we can to push back against 
these voter suppression efforts. And you didn't just come for 
Texas, although that is your first love. You came on behalf of 
states and Americans all across the country who are facing a 
similar rollback of their access to the ballot box, so I can't 
thank you enough for that. I want to pledge to you that I and 
others here are continuing to do everything we can to get H.R. 
1, S. 1., the For the People Act, and H.R. 4, the John Lewis 
Voting Rights Advancement Act, across the finish line, and to 
do that as quickly as we can, understanding that our democracy 
is up against a shot clock right now when you look at plans to 
engage in extreme partisan gerrymandering across the country, 
as well as to further ingrain this voter suppression that we 
have seen. So, I thank you for being here, and we very much 
appreciate your willingness to lean in every single day on 
these critical issues.
    End of the day, all we are trying to do is create a 
political ecosystem that puts the voter in a respectful place. 
That is all. Not to give one voter an advantage over the other, 
but to raise standards all across this country so that when you 
wake up in the morning on the day you have decided to cast your 
vote, whether it is sitting at your kitchen table filling out 
an oval on a mail-in ballot where it is going to an early 
voting center, or it is showing up on Election Day, you have 
confidence that you can complete that transaction without 
having three or four or five contingency plans to make it 
happen. That is all we are trying to do with these reforms.
    Let me ask you, Representative Collier, and then 
Representative Thompson and Bernal. I would like to get your 
perspective. But you had mentioned, Representative Collier, I 
think, very astutely, that things that can be dressed up as 
mere inconvenience or difficulty in accessing the ballot box 
are really just voter suppression. It is complicated sometimes. 
You can create a kind of Rubik's cube or Rube Goldberg 
contraption on voting where you can say, well, you know, the 
locale has this rule and that rule, but somebody is 
masterminding that that is going to have an impact, and often 
an impact on certain groups. So, I would be interested to hear, 
we have got about a minute and a half left, but maybe each of 
you take a few seconds to talk about, you know, one or two 
examples of something that gets painted as, you know, 
inconvenience or difficulty but, you know and you have seen 
that, actually, it has an impact, and often a disproportionate 
impact, on the ability of people to access the ballot box. We 
can start with you, Representative Collier.
    Ms. Collier. Thank you so much for the great question. You 
know, when the polling locations change, people get used to 
voting in a particular location, but they change those 
continuously, then that is a form of suppression when you 
change the hours that a polling location is open, on different 
days even. So, you may say Monday, Wednesday, and Friday it is 
open from 11 to 7, but 7 to 7 on Tuesdays and Thursdays. That 
can get complicated and confusing. Those are methods. The other 
thing, it deals with the types of identification. So, you can 
use your open to carry license, your license to carry, but you 
cannot use your student ID that is issued by a state 
institution. So, it is confusing, and there is a lot of red 
tape when it comes down to voting by mail that make it 
difficult for people to participate in the process. It is 
cumbersome. And then when you do participate and you make a 
mistake, you are subject to harsh criminal penalties where you 
could face jail time. In this particular bill, the presiding 
judge could face jail time, without a warning, that this same 
poll worker watcher who violates the law would get a warning 
first and then, you know, a criminal penalty, subject to 
criminal penalties.
    So, I don't see parity in the law that they are doing for 
this particular measure when it comes down to elections, and so 
that is what we want to make sure. And it is unfortunate that 
we have to come to Washington, DC. We are still doing our job 
today. I have not stopped doing my job in representing my 
constituents since 2013, and that I would have to come, for a 
Member of Congress to tell me that he has negotiated and 
confirmed that a provision that was harmful to people will be 
removed. So, that is unfortunate, but that is where we are 
today. And so, I thank you for your bill and for the 
consideration, and I look forward to working with you.
    Mr. Sarbanes. Well, unfortunately, I have run out of time. 
I would love to get the other thoughts of the other panelists, 
but I am out of time. I did just want to say, Mr. Chairman, 
that as Representative Bernal said before, the word of mouth 
goes back into a community about how hard or easy it is to cast 
your vote, and wouldn't it be something if we could create 
standards across this country so that when people went back to 
their community, they said, you know, I went and voted today 
and it worked out just fine for me, and we should all get out 
there and cast our vote and raise our voice. With that, let me 
yield back my time.
    Mr. Raskin.[Presiding.] Thank you, Mr. Sarbanes, for your 
leadership and your questioning. We go now to Ms. Fletcher, who 
represents Houston, is not a member of the subcommittee, but 
she waived on and changed all of her travel plans to be here to 
hear the distinguished representatives. Ms. Fletcher, you are 
recognized for your five minutes of questioning.
    Ms. Fletcher. Well, thank you so much, Mr. Chairman, for 
allowing me to participate in today's hearing, to join you for 
the hearing, and I really want to thank our witnesses for being 
here, both those who are here in person and those who are 
joining us virtually. I have limited time with five minutes, 
but I do want to respond to a few issues that we have heard 
today and also give you all a chance to respond. There were 
several questions that I think the witnesses were not able to 
answer fully, but I also want to address why we are here and 
why this matters. These bills are being written in Texas, but 
these bills are being written across the country, and this is a 
national issue, and what is happening in Texas is really a 
cautionary tale.
    I want to followup on something that my colleague, Mr. 
Fallon, said. You know, he raised the issue and said that it 
was horrifying to him and heartbreaking to hear about the past. 
Our witnesses here are talking about the past, but they are 
talking about the present. They are talking about what is being 
done to suppress the vote in Texas today. It is still 
happening, and it may not be, as our beloved late colleague, 
John Lewis, told us, requiring people to count the number of 
jellybeans in the jar, but our witnesses are telling us what is 
happening right now. And we need to listen to them, and we need 
to understand how we respond to this at a Federal level.
    I have a couple of quick followup questions. Ms. Thompson, 
Representative Mace asked you several questions about what you 
need in Texas, an ID for, and she asked a litany of questions, 
but there was one question she didn't ask, which was does Texas 
require you to have an ID to vote, and I believe the answer is 
yes. In Texas, we have voter ID, and this bill is not about 
voter ID. It is a distraction from the issues and the methods 
that are in front of us. Is that right?
    Ms. Thompson. Yes.
    Ms. Fletcher. And you also talked a little bit about the 
poll watchers, and I would like to know, I understand in this 
last legislative session that Texas passed what is called 
constitutional carry. Can those poll watchers carry weapons 
into the polling places under this legislation?
    Ms. Thompson. We are not sure yet. I am not sure. I don't 
think so, but I am not sure.
    Ms. Fletcher. OK. Another question I had in followup, and 
this is directed at Ms. Perales. Mr. Roy asked a question about 
Section 2 of the Voting Rights Act. And is it fair to say that 
the Voting Rights Act has, in fact, been watered down over the 
years and that we need to protect the rights of voters under 
Section 5 as well as Section 2?
    Ms. Perales. Yes, it is absolutely true to say that, and he 
was inaccurate in saying Section 5 was struck down. It was not. 
It was the coverage formula in Section 4. Nevertheless, Texas 
voters and many others throughout the South have lost an 
important guarantee of their voting rights, and it needs to be 
restored as soon as possible.
    Ms. Fletcher. Thank you very much, Ms. Perales. Another 
thing that we heard several of our colleagues talking about 
today is, in fact, some of the very innovative things that 
happened in Houston and Harris County, which I have the 
privilege of representing here in the Congress, and some of the 
extraordinary steps that our officials there took to make sure 
that people could safely exercise their right to vote during 
the pandemic. So, some of the things that have been framed as 
issues of convenience really are issues of access. And from my 
experience, people across my district voted using these methods 
for a variety of reasons, and it was all voters who took 
advantage of these of these methods. And our elections 
administrator testified before the Texas legislature in the 
spring about some additional bills, not this current version of 
the bill, but a prior iteration, and really explained that some 
of the critical pieces that are challenging here is forbidding 
elections offices from telling people about mail-in ballots, 
about educating voters about their options to access the ballot 
box. It is a real micromanagement of local entities that is 
kind of contrary to what Texas Republicans have traditionally 
identified as a value of theirs.
    But it also does something, and we heard this from our 
colleagues today, that you are just kind of requiring some of 
the same things for people. But I would love to hear from you 
all how some of these things, and I think that has been the 
point of this hearing, that what may seem facially neutral is, 
in fact, discriminatory and will have a disproportionate impact 
on people in the communities that we all represent. And so, I 
wanted to turn back because I think that Ms. Collier and, I 
believe, also Ms. Perales were both not able to answer two 
questions. So, I want to give you the time I have remaining to 
clear up anything that was asked and you didn't get a chance to 
completely answer.
    Mr. Raskin. OK. The gentlelady yields back, and you will 
each be given a quick sec to respond.
    Ms. Collier. Thank you so much. So, just going through the 
part about the ballots being rejected, there is a provision on 
page 24 where the ballots will be rejected and then about the 
partisan poll watchers. Again, there is no parity in criminal 
penalties. They can get away with, you know, violating the law, 
and then there was a question about can someone file a 
complaint. I can, but the harm has already been completed, so I 
have already been deterred and disenfranchised by the time I 
can file a complaint. So, I really have a whole bunch of 
measures in here that need to be addressed, that they now 
recognize, and so this is further evidence that they have not 
really fully vetted the provisions of this bill.
    Mr. Raskin. OK.
    Ms. Perales. I would simply add in one minute, less than 
one minute, to Representative Donalds, the section that you are 
looking for in the bill that you are reading is Section 5.10, 
in which the number provided by the mail voter has to match the 
number on file with the registrar. And then the last thing I 
would like to mention, just to emphasize, this bill has nothing 
to do with voter ID at the polls. However, since Representative 
Fallon stressed so much that he wanted things to be truthful, I 
need to correct him. He said there was no voter ID in 2008. 
There was. He said that the 2011 voter ID bill did not depress 
turnout. It must be pointed out the 2011 voter ID bill was 
struck down as racially discriminatory by a Federal court and 
was not used in the 2020 election. So, even though this bill is 
not about voter ID, it is important for us to remember that the 
voter ID law passed by Texas within the past decade was 
racially discriminatory.
    Mr. Raskin. OK. Thank you very much. Is Mr. Comer back, Mr. 
Sessions, do you know, or is he----
    Mr. Sessions.[Inaudible.]
    Mr. Raskin. Yes.
    Mr. Sessions. And people are doing, as is constitutionally 
required, doing that duty also.
    Mr. Raskin. Of course. Well, let's see then, and I don't 
know whether Mr. Veasey or Mr. Davis is online with us yet. All 
right. Well, I believe we are still on the second vote. I 
believe that is right. Well, why don't we do this? We will take 
the remaining members as we have committed to them. We are not 
going to otherwise have time for all five of our witnesses to 
say a word of closing, and a couple haven't spoken in a while. 
So, why don't we give each witness a minute to give your 
closing now, and, if you don't mind, we will come back to you 
for further questioning. Mr. Bernal, why don't we start with 
you?
    Mr. Bernal. Thank you, and, again, thank you for having us. 
I think, in closing, it is important to point out that we have 
exchanged a lot of platitudes here, but we have not had a 
substantive debate about the actual components of the bill. 
Nobody wants to talk about the legality and the pieces about 
partisan poll watchers. No one wants to defend the piece about 
voter assistance. We had an exchange where someone accused us 
of being incorrect and then that was later found that that we 
were correct, and I think that the details matter. It is not a 
bill about voter ID. We can talk back and forth about our sort 
of hashtag messaging, but we have not had a substantive debate 
at large about the bill, because when we do, people see that we 
are right. We haven't had it in the State House. We tried to 
have it and we were ignored completely. But the substance of 
the bill, the actual pieces, not the spirit, not the overall 
phantom wrong that we are trying to correct, but the actual 
nuts and bolts of the bill matter. And when we do that, it is 
clear what the bill aims to do in the face of absolutely 
nothing to justify it.
    Mr. Raskin. Thank you, Mr. Bernal.
    Mr. Sessions. Mr. Chairman?
    Mr. Raskin. And the devil is indeed in the details.
    Mr. Sessions. Mr. Chairman?
    Mr. Raskin. Yes?
    Mr. Sessions. In fairness, and I know fair is on my side or 
your side--who cares--but I would like to engage the gentleman 
for 30 seconds.
    Mr. Raskin. OK. All right. Take 30 seconds. Let's do that, 
and then Mr. Veasey----
    Mr. Sessions. In my opinion, this is partisan mailing that 
goes out that says ask for a ballot. Is that what this is in 
reference to? It is to me. So, should they not allow anyone to 
mail out anything? And it is a question, anything about 
requesting an early ballot.
    Mr. Bernal. I don't understand the question. Are you 
saying----
    Mr. Sessions. Well, you are talking about partisan politics 
engaged in the election process.
    Mr. Bernal. I am talking about the details of the bill.
    Mr. Sessions. Well, I am talking about, we are, and what 
that is about is the legality for a party, political party, to 
mail out to someone requesting an early ballot.
    Mr. Raskin. But would that be allowed under the new 
legislation, let's just get that, for a party to mail out----
    Mr. Bernal. In limited circumstance it would, but for the 
most part, they are they are eliminating the ability to send 
someone an application. It is an application. It is not a 
ballot.
    Mr. Sessions. It is an application----
    Mr. Bernal. You still have to qualify for----
    Mr. Sessions. But that is the partisan part, isn't it?
    Mr. Bernal. You still have to qualify for the ballot. Just 
because you get the application doesn't mean that you get to 
vote by mail if you apply for it.
    Mr. Sessions. What is partisan? You say we are not getting 
to it. What is the partisan? What act would happen that you 
don't like?
    Mr. Bernal. Excuse me?
    Mr. Sessions. What act would happen that is political that 
you oppose?
    Mr. Raskin. OK. And we will give you a chance to answer, 
and then we are going to go to Mr. Veasey. He has been so 
patient.
    Mr. Sessions. Oh, we have got another member.
    Mr. Raskin. He is back.
    Mr. Sessions. Thank you.
    Mr. Bernal. Can I respond?
    Mr. Raskin. Yes, quickly, if you would.
    Mr. Bernal. Voting is a right and not a privilege, and if 
you limit the ability for people to access the ballot, if you 
limit----
    Mr. Sessions. We are talking about partisan activity is 
what you talked about.
    Mr. Raskin. All right. All right. I am going to cut it off 
there because Mr. Veasey, who represents Houston, I believe--I 
hope I got that right----
    Mr. Sessions. No, it is North Texas.
    Mr. Raskin. North Texas, has been with us today. He waived 
on for the purposes of hearing the testimony of the witnesses, 
and you are recognized for your five minutes of questioning, 
Mr. Veasey.
    Mr. Veasey. Mr. Chairman, thank you very much. Yes, I am 
Marc Veasey. I am not on the committee. I waived on. I 
appreciate the chairman allowing me the opportunity. I 
represent Fort Worth and Dallas. As a matter of fact, Nicole 
Collier, who is one of the witnesses here, a representative, 
she is my neighbor and my state representative, and I 
appreciate her presence here today. And I just want to really 
thank my former colleagues in the state legislature, my 
friends, current state legislators, for really being courageous 
to take the time to be here. I know that all of you all are 
from different types and districts and have different sort of 
political challenges. And the fact that you took the time to 
come here to stand up for voting rights in this country really 
means a lot.
    And that was one of the reasons why I started the 
congressional Voting Rights Caucus. I am the chair of the 
congressional Voting Rights Caucus here in the U.S. House of 
Representatives and started it because, from my time in the 
state legislature, I knew that we were going to have some 
troubled times just because of a lot of the pretty blatant 
voter suppression attempts that I saw when I was in the 
legislature, including a group called the King Street Patriots 
that came to testify that people should be allowed to record 
people with cellphones while they vote. Just absolutely, you 
know, ridiculous that we are still having to live that way.
    And I wanted to ask, I don't know, I think Representative 
Clardy is still on. There has been a lot of talk and discussion 
about these rules and the fact that these brave Texans have 
broken quorum to come here. Representative Clardy and I did not 
overlap in the State House. I think we missed each other by one 
session. Before I got there, then Lieutenant Governor David 
Dewhurst said that redistricting and voter ID were so 
important, so important that they were going to break the rules 
and change them, the two-thirds rule in the Senate, the 
filibuster rule, the same thing that we are grappling with 
right now in the U.S. Senate, that they were going to change 
the rules instead of working with other side so they could get 
the votes needed to pass redistricting and to pass voter ID. I 
wanted to ask Representative Clardy was he OK with the 
Republicans breaking the rules at that point?
    Mr. Clardy. Yes, I am still here, Congressman Veasey, and 
it is good to see you again. So, to that point, one, I don't 
believe that was Lieutenant Governor Dewhurst.
    Mr. Veasey. It was Dewhurst. It was when I was there. It 
was Dewhurst, and then Patrick took over and he permanently 
changed the filibuster rule. So, were you OK with it then?
    Mr. Clardy. I wasn't in office then, and, frankly, I was a 
fan of the two-thirds rule, so----
    Mr. Veasey. But are you OK breaking it, because, right now, 
we wouldn't even be having these problems if the two-thirds 
rule was still in place? So, they are using the only tools that 
were available for them at the time.
    Mr. Clardy. May I answer the question? Again, before my 
time, but as you described it, it sounds like, to me, Dewhurst, 
and this was in the other chamber that you and I didn't serve 
in, that they avail themselves of their rules, to change their 
rules, which we do every session. We adopt in the House our 
rules, and we can modify or change them, keep them the same. 
So, they did act under the color and the letter of their law, 
if that is what was done.
    Mr. Veasey. So, you were OK with them changing the rules 
for their means, but you have a problem with what 
Representative Thompson and other Democratic state legislators 
are doing. I just don't get the double standard. I wanted to 
ask Ms.----
    Mr. Clardy. Can I just----
    Mr. Veasey. I wanted to ask Ms. Thompson----
    Mr. Clardy. I am in favor of them following the rules, and 
part of that allows you to modify or change a rule.
    Mr. Veasey. They are following the rules right now. Thank 
you.
    Mr. Clardy [continuing]. To do is leave the state and 
obligation under the Constitution.
    Mr. Veasey. Thank you, Representative Clardy. Thank you. I 
wanted to ask Representative Thompson something. I am going to 
go off script from my remarks here, and I wanted to ask you 
this in closing. I don't know if you have seen the movie, Birth 
of a Nation, or not. It is a terrible movie, and one of the 
things that we, you know, have a hard time explaining to some 
of our white colleagues here is how racism is normalized. We 
are having this big debate right now over critical race theory 
and things like that, about how racism is normalized in 
society. And you have to see this movie to understand how 
people that were liberal and conservative back during that time 
period, our colleagues' grandparents and their great 
grandparents, believed these crazy stories and tales about 
black people committing voter fraud, and we are starting to 
hear these same stories and these same tales today. As a matter 
of fact, Ms. Thompson, you had one of your colleagues in the 
State House that had a map that was showing here is where the 
voter fraud takes place. I don't know if you remember seeing 
that video. He was saying, here is where the voter fraud takes 
place, and he was pointing to black precincts, and there was 
absolutely zero evidence of any voter fraud that was taking 
place. It was pure stereotyping.
    When you see this sort of stereotyping in 2021, Ms. 
Thompson, because you have seen Jim Crow, to get where we are 
now, when you see the same sort of racial stereotyping taking 
place today in 2021 that took place in a D.W. Griffith film in 
1915, how does that make you feel?
    Mr. Raskin. The time of the gentleman has expired. Thank 
you to the gentleman from Dallas-Fort Worth, and the witness 
may answer the question.
    Ms. Thompson. It makes me feel like we are not going to 
ever stop having to deal with the past and have to continue to 
keep fighting the past, and I can't progress further than the 
past. And my children will never get an opportunity, nor their 
children, to be able to live in society and be treated as an 
American and respected as American and have an opportunity and 
a right to be able to have a voice in their democracy, a right 
that we all are guaranteed under the Constitution. And in 
addition, there, too, to feel as though that they are real 
citizens of this country, the only country that they have been 
born in and they know about. That is how I feel.
    Mr. Raskin. Again, thank you to the gentleman from Dallas-
Fort Worth, and, Ms. Thompson, thank you. Let's see, Mr. Davis, 
who is our final representative, is now on Zoom. Representative 
Davis, you are recognized for your five minutes of questioning.
    Mr. Davis. Thank you. Thank you very much, Mr. Chairman, 
for calling this very important hearing. And I certainly want 
to thank all of our witnesses, especially those who came all 
the way from Texas, and I don't really care how they got there, 
whether it by plane, train. Even if they had to walk, I think 
they would have been there just the same, so I thank them for 
taking their time and for coming.
    As a matter of fact, I call them my heroes and sheroes, and 
I call them that because I am reminded that Dr. King was often 
fond of saying that, ``Injustice anywhere is a threat to 
justice everywhere.'' And so even though we have been talking 
about Texas, but there are many places throughout the country 
where there are efforts to suppress, deny, delay, and take away 
the rights of people to vote and certainly not to enhance them, 
which is what it seems like we really ought to be doing is 
trying to make it easier for people to participate in public 
decision-making.
    You know, after Republicans failed to pass these voter 
registration restrictions during the regular legislative 
session, Governor Abbott called a special session to try to ram 
through these anti-democratic measures. Under Texas law, the 
Governor must set an agenda for these special sessions by 
specifying what issues lawmakers should consider. There were 11 
items on the Governor's agenda, which he released less than a 
day before the special session began. He called these priority 
items that will keep Texas, and I quote, ``on a path to 
prosperity.'' I think we have a slide that might show those. If 
we do, can we have the slide? Well, we won't worry about it at 
the moment. There we are.
    [Slide.]
    Mr. Davis. You can see Governor Abbott had other things 
beyond just voter suppression. He also focused on banning 
transgender student athletes from school sports, and on 
curtailing discussions of racism in Texas classrooms, and on 
further restricting a woman's right to choose. But you know who 
it is not included on this list? There is nothing on this list 
about solving the problems with Texas' electrical grid that 
caused widespread our outages during winter storms this year. 
And I think we have a slide that would show some of that.
    [Slide.]
    Mr. Davis. Over 200 people died. An investigation by NBC 
News, The Texas Tribune, and ProPublica blamed power failures 
on an unprecedented wave of carbon monoxide poisoning. Our 
Subcommittee on Environment is currently investigating these 
failures. Representative Collier, what was your reaction to 
Governor Abbott's failure to include further action on the 
electrical grid for the second session that he called?
    Ms. Collier. Thank you, Congressman. A great question. It 
was a missed opportunity for the state legislature to actually 
take action to provide the needed infrastructure and 
information and backing that Texans need. We have Texans now 
who are still conserving energy, and so we have not fully 
answered the call to provide necessary resources for Texans 
when it comes down to our power grid. We need to reinforce our 
power grid. We have so many other things that we could be 
focusing on. The Governor not only failed to put on the power 
grid, but he also defunded the legislature in response and in 
retribution to the quorum break. So now, 2,100 state employees 
who work for the Texas legislature in the legislative branch 
will be without health insurance in a state that already has 
the highest number of uninsured Texans. So, unless the Governor 
takes action, we will continue to see the erosion of humanity 
in this state.
    Mr. Raskin. Thank you.
    Mr. Davis. Thank you.
    Mr. Raskin. And then thank you, Mr. Davis----
    Mr. Davis. Representative Bernal, you cited systemic 
failures that led to these outages, including----
    Mr. Raskin. Mr. Davis, forgive me. We are going to have to 
go vote. Your time has expired, so I am afraid we will have to 
cut it off there, but invite you to, you know, continue that 
line of questioning in written questions to the witnesses, if 
we could.
    Mr. Davis. Thank you, Mr. Chairman, and I yield back, and 
thank the witnesses again for coming.
    Mr. Raskin. And thank you, Mr. Davis. Let's see. So, what I 
would like to do is to, you have already gone, Mr. Bernal. I 
would like to give 30 seconds to each of the witnesses for any 
closing thoughts, including the ones who are on Zoom. Ms. 
Collier, did you have something that you could do within 30 
seconds?
    [Audio played.]
    Mr. Sessions. Mr. Chairman, I don't know who that is coming 
from, but that is offensive.
    Ms. Collier. Thank you. Absolutely it is offensive.
    Mr. Sessions. Where did that come from?
    Ms. Collier. That is a call that was made to my government 
state office----
    Mr. Sessions. Oh well, ma'am, I can----
    Ms. Collier. And these are the type of people----
    Mr. Sessions. Well, I can put those up also. I don't think 
it is appropriate, Mr. Chairman, at this hearing.
    Ms. Collier. Well, these are the type of people that we are 
confronted with.
    Mr. Raskin. OK. It is Ms. Collier's time. Thank you very 
much for playing that----
    Mr. Sessions. I think that is inappropriate, Mr. Chairman.
    Mr. Raskin. You are now recognized for your 30 seconds, Mr. 
Sessions.
    Mr. Sessions. I will take my 30 seconds, and I want to 
thank the witnesses that were here today. I would personally 
like to meet with them. I have no say in granting this out, but 
I think that the difference between the truths on both sides 
and reality in the middle is, is that there was a lot on the 
side and that is very simple. Texas Jim Crow laws took place by 
Democrats until literally the year 2000, and it was a two-party 
system that changed what is occurring. A two-party system. And 
yet our witnesses, or at least three or four of them, are here 
to go to one-party rule, and I don't think that is what makes 
America great, and I think they should understand that, and I 
think it is a Constitution. I think it is a Supreme Court. And 
one-party rule would overrule everybody, including the Supreme 
Court. They would overrule everything except political 
consideration as opposed to the law. And so, I think what you 
are doing, I would ask that you would rethink that. I want to 
thank you. I want to thank you for being here, and I would 
sincerely like to find the differences between those that we 
have, and I would encourage you to please contact me to do 
that. Mr. Chairman, I want to thank you very much.
    Mr. Raskin. And thank you, Mr. Sessions. Ms. Thompson, did 
you have anything you wanted to say in closing?
    Ms. Thompson. Thank you, and, Pete, I want to thank you so 
much. You know, we have differences, but reasonable minds can 
differ.
    Mr. Sessions. We can solve them.
    Ms. Thompson. I am ready to work with you, Brother.
    Mr. Raskin. Thank you so much. And let's see, Ms.----
    Ms. Thompson. Mr. Chairman?
    Mr. Raskin. Yes?
    Ms. Thompson. If you would just give me a moment. I want to 
just thank you for this meeting, and I want to just say that I 
am hoping during my lifetime that I don't have to keep 
struggling with the past and I can move forward, and I can be 
able to protect the rights of my constituents to vote. Lyndon 
Baines Johnson, 56 years ago, was the President who had enough 
integrity about himself to give us a Federal answer to the 
struggles of voting. And I am hoping that this Congress will do 
the same thing for us.
    Mr. Raskin. Thank you very much, Representative Thompson. 
Representative Clardy, let's come to you for your 30 seconds.
    Mr. Clardy. Thank you, Chairman. Again, I want to thank you 
for your courtesies of having us in, but I do want to say one 
thing. There was a statement made about somehow this bill makes 
it a crime to encourage people to vote. That is an absolute 
falsehood. I do not understand the hysteria and the hyperbole 
that surrounds this bill. This is a good bill. Take the time to 
read it. You know, the one thing I didn't hear today, I didn't 
hear the entire time I served on the Elections Committee in the 
regular session, nor in the select committee so far in the 
special session, was anybody that came forward and said I was 
deprived of my opportunity to vote. I wanted to, but I couldn't 
vote in Texas. If you want to vote in Texas, if you register 
and you are eligible, you get to vote in Texas. We had a record 
turnout in this last election cycle.
    But I got to come back to something that Congresswoman 
Maloney, I think, said about, well, there is no evidence of 
widespread panic.
    Mr. Raskin. OK. Make this your final point, if you would. 
Thank you.
    Mr. Clardy. If I would. This is the final point. There is 
no evidence of widespread fraud in Texas, and they compared it 
to a lightning strike. The difference is there is nothing we 
can do to stop lightning strikes. We can stop election fraud. 
We have to have zero tolerance for election fraud in this 
country.
    Mr. Raskin. Thank you very much, and I am going to excuse 
myself to go and vote. We will hear from Ms. Perales, and I am 
asking Congresswoman Norton to take over for me. I just want to 
say in closing that our Nation was founded with the beautiful 
idea of the consent of the governed and the participation of 
all of the people, at the same time that it was also founded 
with lots of efforts to exclude people from voting. And we have 
got to overcome that urge to exclude people from voting. I 
commend and I thank our colleagues from Texas for coming to 
Washington to remind us about what really is crucial in our 
country, which is making sure that everybody's right to vote is 
protected against every attempt to restrict the franchise, even 
if it is complex and subtle. And with that, I will turn it over 
to Congresswoman Norton.
    Mr. Clardy. You all come home. Texas needs you.
    Ms. Perales. I am ready to give my closing.
    Mr. Raskin. Ms. Perales.
    Ms. Perales. Thank you. With all due respect to 
Representative Clardy, for whom I have an enormous amount of 
respect, Senate Bill 1, Section 5.04 makes it a crime to 
encourage a voter, to choose them as an assistor, and then to 
go to the polls and assist that voter and sign the oath. So, in 
fact, it is a crime.
    I just want to close by saying there is only one reality 
here. The reality is in the face of the bills, which anybody 
can read. The reality is in the changing demographics of Texas, 
largely driven by Latino, African American, and Asian-American 
voters. And when Texas restricts voter assistance, and 
everybody knows that the majority of voters who receive 
assistance are Asian American and Latino, and nobody comes and 
testifies that these restrictions are necessary or based on 
anything that happened at the polls. The only rational 
conclusion that we can draw is that this is an attempt at voter 
suppression. Thank you.
    Ms. Norton.[Presiding.] I thank you very much. This hearing 
has really been necessary. The American people needed to know 
why Democrats in Texas fled their state. That was so important 
that we have held an entire hearing on what you have done. I 
can only thank you that your own extraordinary steps have 
educated the rest of the country on just how important voting 
is. You have come to the District of Columbia, which I 
represent. The District of Columbia does not have the final 
vote on the House floor. I vote in this committee, and I have 
all the other benefits of being a House member. I have no 
representation. The people I represent, a number larger than 
those of two states that have all of their rights, have no 
votes whatsoever in the Senate. So, it has been a very great 
pleasure for me to hear from representatives who have the vote, 
cherish the vote, and have made it clear to all of us why the 
vote is so important.
    I thank you very much again for your testimony, and this 
hearing is now adjourned.
    [Whereupon, at 2:29 p.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
